<html>
<title> - OPTIONS FOR REFORMING U.S. OVERSEAS BROADCASTING</title>
<body><pre>[Senate Hearing 114-826]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-826

            OPTIONS FOR REFORMING U.S. OVERSEAS BROADCASTING

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           NOVEMBER 17, 2015
                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available via the World Wide Web: https://www.govinfo.gov
       
       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-556 PDF                 WASHINGTON : 2020   




                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     2
John Lansing, Chief Executive Officer, Broadcasting Board of 
  Governors, Washington, DC......................................     3
    Prepared Statement...........................................     6
Hon. Jeffrey Shell, Universal Filmed Entertainment Group, 
  Chairman; Broadcasting Board of Governors, Chairman, Universal 
  City, CA.......................................................     9
    Prepared Statement...........................................    10
Hon. Kenneth R. Weinstein, Hudson Institute, President and CEO; 
  Broadcasting Board of Governors, Member, Washington, DC........    13
    Prepared Statement...........................................    15
Hon. S. Enders Wimbush, Public Policy Fellow, Woodrow Wilson 
  International Center for Scholars, Washington, DC..............    36
    Prepared Statement...........................................    39
Kevin Klose, Professor, Philip Merrill College of Journalism, 
  University of Maryland, College Park, MD.......................    43
    Prepared Statement...........................................    45

              Additional Material Submitted for the Record

Fixing U.S. International Broadcasting--At Last! (By Dennis 
  Mulhaupt and S. Enders Wimbush)................................    54
A 21st Century Vision for U.S. Global Media by Ross Johnson and 
  R. Eugene Parta................................................    58
Reassessing U.S. International Broadcasting by S. Enders Wimbush 
  and
  Elizabeth M. Portale...........................................    80

                                 (iii)

  

 
                      OPTIONS FOR REFORMING U.S. 
                         OVERSEAS BROADCASTING

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Gardner, Perdue, Cardin, 
Menendez, Shaheen, Murphy, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    I want to thank everyone for being here. I want to thank 
the witnesses for joining us today as we discuss options for 
reforming the Broadcasting Board of Governors. We are currently 
working on legislation and your input is important to this 
process. So, again, thank you.
    Voice of America and Radio Free Europe were critical during 
the cold war, and BBG continues that legacy by informing global 
audiences about U.S. foreign policy and broadcasting objective 
news into countries with no free press.
    BBG's work is as critical as ever when authoritarian 
regimes around the world deprive their citizens of credible 
news and use sensational misinformation to undermine the 
credibility of democratic values and institutions. We see this 
propaganda providing cover for oppression within these regimes 
and aggression abroad with ruthless effect.
    The United States can, and must, present the other side of 
the story, and that requires reorganizing the BBG to be a more 
effective voice. Appointing a CEO, who is with us today, was a 
step in the right direction, but the position is not fully 
empowered to make strategic decisions.
    Independent analysis has also determined that the BBG's 
deep involvement with its grantees impedes their success and 
creates the appearance of a conflict of interest. And I am sure 
there will be certain statements countering that today, but 
that is what some independent analysis has said. Nobody is 
making the tough choices about which language services to 
prioritize and broadcasters are not being held accountable for 
achieving results.
    Results in my opinion should not mean audience reach or 
even listenership. It should mean are we informing our target 
audience and helping it form its own opinion on important 
topics. I am not sure we can answer that question right now, 
and I know that all of you would agree the American taxpayer 
deserves an answer.
    Many options for reforming the BBG have been put on the 
table. The House has put forward a very sensible bill, and we 
are looking closely at it.
    The war of ideas is especially dangerous in the information 
age, and the BBG must be retooled to compete in an increasingly 
hostile environment for democratic free market values that are 
the anchor for global security and stability.
    And with that, I turn to our distinguished ranking member.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Chairman Corker, for 
convening this hearing on the United States international 
broadcasting.
    As we open today's discussion, it is essential that we 
recognize that the U.S. international broadcasting is an 
integral component of our efforts to advance freedom of 
expression and freedom of the press and share with the world 
the democratic values we hold so dear here in the United 
States.
    U.S. international broadcasting has played an important 
role in several of the most important geopolitical advances in 
the last half a century. To cite just one example, we have 
consistently heard from our friends in Eastern Europe about how 
U.S. international broadcasting played a critical role in their 
transition to more open democratic societies.
    Today citizens around the world, specifically those living 
in closed and restricted societies, continue to rely on U.S. 
international broadcasting. They turn to content produced by 
the Voice of America to understand U.S. perspectives on current 
events, and they turn to surrogate broadcasting services such 
as those provided by Radio Free Europe, Radio Liberty, and 
Radio Free Asia for objective reporting on local events in 
their own country that they would otherwise be denied.
    Despite the importance of U.S. international broadcasting, 
we have come to understand that the structure of the BBG has 
limited the effectiveness of its efforts. In its January 2013 
report, the State Department's inspector general stated that 
BBG's ``dysfunction stems from a flawed legislative structure'' 
and observed that a part-time board cannot effectively 
supervise the agency's operations.
    It is clear that reform is needed and that Congress has a 
central role to play in strengthening the existing efforts. As 
part of this process, I would like to see Congress authorize a 
permanent CEO position, and I also support current proposals 
that bring together various surrogate broadcasting services 
into a single institution.
    Additionally, while we must guarantee that journalistic 
integrity and objectivity are absolutely preserved in any 
reform effort, I see the need for better coordination between 
BBG and the rest of government. And we need new tools to better 
evaluate the impact of U.S. international broadcasting. These 
are common sense proposals that should be part of any 
legislative effort.
    Mr. Chairman, let me point out that the world changes 
pretty quickly. And you look at the decisionmaking process on 
resources which many times are a year and a half before the 
actual budget takes place and the world has changed a lot 
during that 18-month period. We need to have the flexibility to 
put resources where they are the most important to U.S. 
interests. And it is critically important, I believe, for this 
committee, the authorizing committee of the United States 
Senate, to have a role in regards to how those resources are 
allocated. We know the pie is not as large as we would like it 
to be, but we have to use it strategically and in the places 
that are the most beneficial to U.S. interests. And that 
requires an engagement through, I hope, the authorizing 
legislation so that Congress can play role in that regard.
    I look forward to hearing from all of our witnesses today 
about how they view current legislative proposals and what 
legislative changes they think are most critical.
    Finally, it is important that we recognize that technology 
has drastically reshaped the way that we consume information 
and that our broadcasting efforts are but one option among the 
vast number of media platforms. I hope our witnesses can speak 
about how on a strategic level we can update our efforts to 
connect with new audiences while at the same time continuing to 
utilize the traditional tools that have been critical to our 
success to date.
    In closing, as former Secretary of State Clinton said in 
her testimony before Congress in January 2013, that we are 
abdicating the ideological arena and we need to get back into 
it. I could not agree more.
    I look forward to today's discussion and working with the 
chairman and my colleagues here on this committee on reform 
legislation.
    The Chairman. Well, thank you very much.
    Our first witness is Mr. John Lansing, the newly appointed 
CEO to the Broadcasting Board of Governors and former President 
of Scripps Networks. We are glad you are in this position and 
thank you for being here today.
    Our second witness is the Honorable Jeffrey Shell, chairman 
of Universal Filmed Entertainment Group, and has been chairman 
of the BBG since 2013. We appreciate the role that you are 
playing there.
    Our third witness is the Honorable Kenneth Weinstein, the 
president and CEO of the Hudson Institute and a board member of 
BBG. Thank you for your service.
    We thank you all for being here. If you could summarize 
your comments in about 5 minutes, we would appreciate that, and 
then we look forward to questions. Thank you. Just go in the 
order I introduced you, if that is all right.

      STATEMENT OF JOHN LANSING, CHIEF EXECUTIVE OFFICER, 
        BROADCASTING BOARD OF GOVERNORS, WASHINGTON, DC

    Mr. Lansing. Thank you, Chairman Corker, Ranking Member 
Cardin, and members of the committee.
    My role as CEO is delegated by the BBG Board. I oversee all 
operational aspects of U.S. international media and provide 
day-to-day management of the five BBG media entities on behalf 
of the board.
    I have submitted my written testimony, and so I will just 
summarize here in these oral remarks.
    I want you to know first that my initial impressions are 
best summed up in the great pride I have in the professional, 
courageous, and often dangerous work undertaken every day by 
our journalists around the world. I say that both as a new CEO 
here and as an American citizen.
    As the purpose of this hearing is to explore the options of 
reforming the BBG, let me first make clear that I believe 
reform is both important and necessary. Any media company today 
that is not reforming and meeting the audiences where they are 
is at risk of irrelevancy. I look forward to working with you, 
Senator Corker and Senator Cardin, and this whole committee in 
helping move the BBG forward to fulfill its critical role in 
U.S. international media.
    Our role at the BBG is to provide impactful and 
professional journalism that is credible, agile, and responsive 
to parts of the world awash in propaganda that is underlying 
and motivating much of the violent activity as seen in Paris on 
Friday. The credibility of our reporting is our greatest asset. 
We do not do propaganda.
    In my first few months in this role, I have listened 
carefully to key stakeholders of the BBG here on Capitol Hill, 
the State Department, and the White House to name a few. From 
those conversations and my own observations, I have developed 
five core themes that provide a framework for how I believe and 
the board supports we can make the BBG more impactful. They are 
written in detail in my written remarks, but I will cover them 
briefly here.
    First, number one, aggressively shift to mobile, digital, 
and other online platforms to meet our audience where they are 
today, particularly younger, more urban young influencers.
    Second, operate the five brands strategically, create the 
U.S. International Media Cooperative Committee, which I have 
done as of last month, and have the five entities work together 
to have the greatest possible impact working together and not 
at odds with one another.
    Third, curate more and create less for maximum benefit and 
impact, meaning look for an opportunity to curate content so 
that the money we do invest in content can be the content that 
is the most impactful and offers the greatest perspective to 
the issues we are covering.
    Fourth, focus our resources on the most difficult problem 
areas in the world, including the growing influence of China, 
Russia, and of course, countering violent extremism, which 
seems to know no geographic boundary.
    And fifth and perhaps most important, to measure impact 
beyond audience reach. All media companies today, whether in 
the private sector and certainly in the public sector, have to 
understand that reach is not enough anymore. Reaching an 
audience or even having an audience consume the media does not 
tell you anything about the impact that media is having on 
those audiences. And we must hold ourselves accountable to our 
stakeholders, to you that we are measuring that impact.
    When I first heard word of the violence in Paris, I was 
boarding a plane in Kiev, Ukraine, heading back to Washington. 
I had just completed my visit there having begun with some 
meetings earlier in the week at RFE/RL in Prague and then on to 
Kiev where VOA and Radio Free Europe/Radio Liberty actually do 
operate cooperatively and strategically to provide maximum 
impact in Ukraine. Together, the two entities, one Federal and 
the other a grantee, are acting effectively as a counterweight 
to the pernicious propaganda coming from Moscow.
    The joint production, for example, of a program called 
``Current Time,'' that is produced both in Prague and 
Washington on a daily basis, is the most visible and effective 
example of cooperation between any two entities at the BBG. It 
now airs in nine countries on the Russian periphery via 25 
media outlets as it regularly counters propaganda with factual 
reporting.
    In addition, VOA's program, ``Prime Time,'' which 
broadcasts right over here at 3rd and Independence Avenue, 
features hard-hitting interviews by our own Myroslava Gongadze, 
with Ukrainian, United States, and other foreign leaders, in 
which international policies of the United States and other 
countries toward Ukraine are explored and explained through her 
skilled interviews.
    Complementing VOA's international coverage, RFE/RL produces 
hard-hitting local coverage throughout Ukraine, particularly in 
Kiev, often highlighting local government corruption and 
wrongdoing. So the combination of international and local and 
the combination of two BBG entities, one Federal and one a 
grantee, having tremendous impact there.
    VOA and RFE/RL programs are carried on more than 120 
Ukrainian media outlets and are beamed into occupied Crimea and 
eastern Ukraine. From meetings with our own Ambassador Pyatt 
and prominent Ukrainian officials, it is clear to me that 
through the combination of VOA and RFE/RL, the BBG is having a 
significant impact on supporting the young, fledgling democracy 
of Ukraine as it struggles with Russian-backed coercion on its 
eastern border and Crimea.
    For instance, I had the privilege to meet with Ms. Hanna 
Hopko, chair of the Ukrainian Foreign Relations Committee on 
Foreign Affairs, well known by members, I am sure, of this 
committee. When I told her last Friday while we were discussing 
media in Ukraine, that I was going to have an opportunity to 
testify here before this committee, she asked me to share this 
with you. And this is a quote I wrote down. ``RFE and RL and 
VOA provide the truth and objective information that is so much 
needed in Ukraine today. VOA and RFE/RL,'' she said, ``show 
things as they are instead of standard of professionalism for 
Ukrainian media outlets.'' She went on to explain that there is 
no other media in Ukraine that can be counted on for truthful 
and fact-based reporting beyond VOA and RFE/RL working 
together.
    I am immensely proud of the work of our journalists in 
Ukraine, Prague, and around the world. I have been brought in 
as CEO to ensure that this comprehensive, coordinated, and 
impactful approach is engaged in other hot spots, particularly 
with regard to violent extremism so shockingly on display in 
Paris this past Friday. It would not be possible to do that if 
the BBG entities were operating at cross purposes with dueling 
CEOs, for example, or dueling boards.
    As you review options for reforming the BBG, I would ask 
this committee to please consider the critical need for U.S. 
international media to be focused, strategically led, and 
capable of immediate surge capacity under the leadership of a 
single CEO, me or anyone else, and a single board just as any 
private or commercial media company would be organized. Having 
spent 40 years in my professional media career, 30 of which as 
a manager at various levels, I honestly cannot imagine running 
a competitive media company with two CEOs anymore than you 
would manage a football team with two head coaches.
    The example I shared from my visit in the Ukraine 
represents the potential to increase our impact around the 
world with a strategy and a management structure that supports 
all five entities as a collective set of media assets for the 
United States Government for maximum results.
    Thank you for your time.
    [The prepared statement of Mr. Lansing follows:]

                   Prepared Statement of John Lansing

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for inviting me to speak today regarding the 
future of the Broadcasting Board of Governors (BBG) and United States 
international media. I am pleased to join BBG Chairman Jeff Shell and 
BBG Governor Ken Weinstein today.
    I currently serve as the Chief Executive Officer and Director of 
the BBG, where I oversee all operational aspects of U.S. international 
media and provide day-to-day management of BBG networks on behalf of 
the Board.
    In my testimony today I want to present my initial reactions to the 
BBG mission, detail our effectiveness, and outline some of the steps I 
am taking to position the BBG to be both a leader in the international 
media space and a uniquely powerful tool in the U.S. foreign policy 
toolbox.
    Prior to my current role as BBG CEO, I served for 9 years as 
President of Scripps Networks, where I helped the company become a 
leading developer of unique content across various media platforms 
including television, digital, mobile and publishing.
    More important, I am a journalist at heart. I started out as a 
photojournalist in the field, with a camera on my shoulder, and from 
there I was hooked. I worked my way up to serve as a field producer, 
assignment manager, managing editor, and news director at television 
stations in Detroit, Michigan, and Cleveland, Ohio.
    It is through my professional experience as a journalist that I 
gained deep respect for the vital role that impartial, fact-based 
reporting plays in our society. By holding people, institutions, and 
governments accountable to the truth--and by arming citizens with 
undeniable facts--journalists show, often indirectly and subtly, how 
democracies should work. Great journalism presents not only the news, 
but also the context of that news to provide audiences with a greater 
understanding of their world and to empower them to take action.
    As President Obama said in his speech at the 2015 U.N. General 
Assembly: ``The strength of nations depends on the success of their 
people--their knowledge, their innovation, their imagination, their 
creativity, their drive, their opportunity--and that, in turn, depends 
upon individual rights and good governance and personal security.''
    The Broadcasting Board of Governors is fundamentally engaged in the 
business of fact-based journalism. We are not a propaganda outfit. 
Rather, we advance U.S. national interests by engaging audiences that 
are critical to furthering democratic values through open and free 
exchanges of information.
    Throughout U.S. international media's long history, the tools and 
goals have been unwavering: to deliver consistently accurate, reliable 
and credible reporting that opens minds and stimulates debate in closed 
societies and those where free media are not yet fully established--
especially where local media fails to inform and empower its citizens.
    In short, we inform, engage, and connect people around the world in 
support of freedom and democracy. This mission is critically important 
because, more than ever before, information matters.
    In today's increasingly interconnected world, responding to the 
global explosion of information must no longer be considered as a 
``value added'' function in support of broader strategic ends, but 
rather a key focus of U.S. foreign policy in its own right. Today's 
media has the power to reach through the screen to activate audiences 
to action--or to suppress them. Failing to recognize this fact limits 
the effectiveness of our foreign policy.
    Our global agenda will not be effective if we fail to appreciate 
how the flow of information shapes the actions of policymakers, 
institutions, and everyday citizens on the street, and capitalize on 
these trends.
    Equally important, we must constantly evaluate how audiences' media 
consumption preferences change--and we must change with them--if we are 
to be successful. Any media executive worth his or her salt understands 
that as markets and audiences evolve, so too must your organization if 
it is to remain competitive and impactful.
    As CEO of the BBG, I recognize that we must change as well. 
Chairman Shell outlined a few solutions that we believe the Congress 
can provide that would allow the BBG to succeed in the 21st century. 
First and foremost, we need legislation to enshrine a chief executive 
officer position at the BBG who is empowered to manage all BBG 
operations and functions, including the ability to shift resources as 
needed and appoint senior officials.
    But, regardless of these legislative fixes, my team and I have 
taken action internally to move the BBG into a more modern, impactful 
stance. As our adversaries have embraced the opportunities to engage 
and influence audiences using new tools and techniques, so too must the 
BBG team.
    The key driver of all of our internal reforms is impact. Our 
success no longer depends on our unique global reach, but also on the 
intensity of the BBG's relationships with its audiences, the extent to 
which they share and comment on our news and information and, 
ultimately, how they influence local knowledge and thought.
    The impact of U.S. international media for the next decade will be 
based on our ability to be an influential news and information source 
in this dynamic 21st century information environment. We cannot afford 
to lose our status as a global, influential news service. BBG's 
programming must exist on the platforms our audiences prefer and use. 
It must include content that moves and engages them. It must include a 
focus on regions of the world that need us the most--closed or closing 
societies. It must use modern tools to embrace younger demographics and 
engage them as future influencers.
    In order to accomplish these imperatives, I, with the unanimous 
support of the Board, am aggressively prioritizing five core themes to 
ensure the BBG is the 21st century media organization that the tax 
payers demand. I will briefly outline these themes here, but I am happy 
to answer any questions, and brief you in greater detail on any of 
these points, as needed.
    First, we are accelerating our shift toward engaging audiences on 
digital platforms, especially utilizing the power of video, mobile, and 
social networks. If we are to be a credible information source we must 
be on the platforms used by our audiences--be it radio and television, 
or mobile tools and social media. These platforms not only reach new 
audiences, but represent a shift from one-way dissemination, to more 
empowering and engaging audience participation.
    A great example of this ethos is the Middle East Broadcasting 
Networks' (MBN) ``Raise Your Voice'' campaign, which encourages 
citizens across the Middle East to speak out and be a part of the 
discussion about the fight against violent extremism. Over just the 
past 4 months more than 590,000 votes have been cast on daily ``Raise 
Your Voice'' polls and MBN now has 12.3 million followers on Facebook.
    Second, we are rapidly expanding coordination and content-sharing 
across the BBG's five interdependent networks in order to cover and 
report on the stories that matter to audiences and markets that 
increasingly transcend political borders 
and languages. For instance, this will allow us to more effectively 
share our unique coverage of the Middle East with interested audiences 
in Indonesia and Russia, 
or issues surrounding Chinese investment in Africa with audiences 
across Latin America.
    BBG has taken several notable steps in this regard already. One of 
my first steps as CEO was to convene the U.S. International Media 
Coordinating Council (ICC), comprised of the heads of each of our five 
networks.
    The BBG's five networks--Voice of America, the Office of Cuba 
Broadcasting, Radio Free Europe/Radio Liberty, Radio Free Asia and the 
Middle East Broadcasting Networks--operate independently and 
effectively. But, in many instances, they may have overlapping stakes 
on key stories--for example, violent extremism or Russian military 
action in Syria.
    In order to better coordinate our reporting, and make use of scarce 
resources, the ICC now meets monthly to discuss ongoing reporting, 
share information, and join forces where possible on hard-hitting 
reporting.
    Voice of America (VOA) and Radio Free Europe/Radio Liberty (RFE/RL) 
are already making powerful strides on this front. The two networks 
worked together to create ``Current Time,'' a popular daily 30-minute 
Russian-language television news program that is now available in nine 
European countries of the former Soviet Union via 25 media outlets, and 
worldwide via digital platforms. In Russia, where placement on domestic 
stations is not possible, ``Current Time'' is available on NewsTube.ru, 
Russia's largest news site. Our new research shows that nearly 2 
million people in Russia are watching ``Current Time'' weekly online 
and that the program is most popular among 15-24 year olds.
    Third, the BBG is concentrating its efforts in five key issue areas 
where we can be most effective in support of our mission. While our 
reach is global, the BBG cannot cover all events with equal intensity; 
we need to focus our efforts.
    To do so, we are focusing our reporting on the key spheres of 
importance that matter most to U.S. foreign policy, U.S. global 
interests, and the U.S. taxpayer:

  <bullet> Reporting on Russia;
  <bullet> Covering violent extremism;
  <bullet> The widening regional influence of Iran;
  <bullet> China, not only in the South China Sea region, but also in 
        Africa and Latin America;
  <bullet> Promoting universal rights and fundamental freedoms in Cuba.

    Fourth, we are evolving to an organization actively engaged in 
curating, commissioning, and acquiring content. For broader impact, we 
need to focus BBG original reporting to not just rehash the daily news, 
but to provide depth and perspective on events for more meaning and 
impact. To do so, we will complement our deeper original reporting 
through the added curation of external content.
    Curating external content will not only free up BBG resources for 
more impactful, in-depth reporting, it will also potentially support 
the new generations of compelling storytellers, such as the youth in 
many of our markets, documentarians and journalists that engage their 
peers every day on digital platforms.
    Finally, we are emphasizing impact over sheer reach. In the past, 
the BBG was asked to focus primarily on maximizing the number of people 
our programs potentially reached. This number-centric strategy was 
befitting a broadcasting organization with a broadcasting mentality. 
But in today's digital and engaged media environment, we must focus on 
more than just reach. By putting the audience first in how we collect, 
create and distribute news and information, we take a more modern 
approach to informing, engaging and connecting with our audiences.
    These five priorities provide an initial framework for how the BBG 
will position itself as an influential media source on the global 
stage, and as a more functional tool in the USG strategic toolkit. I 
look forward to working with this committee, and the rest of the 
Congress, to implement these strategies fully.
    To close, the fundamental purpose and intent of the BBG is to 
empower our audiences to own their future. We do this by providing 
fact-based alternatives to the propaganda, offering them access to 
truth, and demonstrating the building blocks of democratic society--
accountability, rule of law (versus rule by law), human security, and 
more.
    Voice of America's first broadcast stated: ``The news may be good 
or bad; we will tell you the truth.'' At BBG, we continue to operate 
with that mindset, because truth builds trust and credibility, and 
delivering credible news is the most effective means to ensure impact 
and provide the audience with information that will affect their daily 
lives and empower their own decisionmaking.
    And with that, I am happy to take questions. Thank you for your 
time and attention.

    The Chairman. Thank you.
    Mr. Shell.

STATEMENT OF HON. JEFFREY SHELL, UNIVERSAL FILMED ENTERTAINMENT 
  GROUP, CHAIRMAN; BROADCASTING BOARD OF GOVERNORS, CHAIRMAN, 
                       UNIVERSAL CITY, CA

    Mr. Shell. Thanks, John.
    Thank you, Chairman Corker and Senator Cardin and the rest 
of the committee, for inviting us here today.
    I have a longer written statement as well that I submitted, 
but I am just going to summarize it very briefly here.
    The BBG and its five networks are not widely known by most 
Americans, but our mission is critical now as it has ever been, 
a fact that was tragically punctuated once again in Paris last 
week, as John said.
    The United States faces many global challenges, violent 
extremist groups like Daesh, aggressive and destabilizing 
actions by countries like Russia and others, and the erosion of 
the freedom of expression, and many others.
    While a strong military and strong diplomacy are vital, 
ultimately it is our values and our ideas that will win the 
day. That is where the BBG comes in. Our mission is 
straightforward: engage and connect with people around the 
world and support democracy and our values by telling the 
truth.
    As this committee knows, the BBG is overseen by a 
bipartisan board of people like me with day jobs. My day job is 
running Universal's film business, a global business I have run 
for the last 2-plus years. Every day in that business, I 
grapple with the rapid and fundamental changes occurring in the 
media business. The same changes are actually affecting the 
BBG, but unlike Universal, the BBG also has to deal with the 
rapid and frightening geopolitical challenges that you all deal 
with. We need to be at the top of our game to do so, but 
unfortunately, as many of you know, the BBG has been far from 
effective in past years.
    Responsibility lies at the top. Prior boards were 
fragmented and overly political, not up to the challenge of 
running a global media organization. They were not providing 
our talented team, many of whom risk their lives every day, as 
John said, with the leadership they deserve. Furthermore, most 
of our services were not set up to fight the asymmetric and 
digital challenges we now face.
    Today I am happy to report that we are turning things 
around. We have a highly functioning nonpartisan board of 
experts who are providing the leadership we need. I have to 
say, serving on a number of boards in both the public and 
private sector, this is the most highly functioning board I 
have seen in either place. As a board, we recognize that we 
cannot, and we should not, play an operational role. So we 
recruited and brought on a fantastic CEO, John Lansing, who you 
just heard from, and working with John, we are making the 
necessary reforms to make us more effective and allow us to 
join the critical fights this Nation faces.
    That is not to say there is nothing else to be done. There 
are other fixes we need to work with all of you in Congress on.
    First, as John mentioned, we need to empower the CEO and 
future CEOs with the authority to run BBG's complex 
organizations. And we need to simplify our organization and 
make it more agile, as you said, Senator Cardin, so we can 
better surge resources to where we need them. Interestingly 
enough, I was nominated 3 years ago, and Russia was not even a 
threat at that point. We were thinking about how to deemphasize 
Russia, and times have certainly changed on that side. So along 
with a few other of those fixes, we will position BBG to be a 
powerful force for our national interest.
    Before I finish, I want to add a few words about last 
week's horrific actions in Paris that are incredibly relevant 
to this hearing. As President Obama said, this is an attack on 
all humanity and the universal values we share. American ideals 
and ideas are more important than ever in the fight against 
Daesh and global extremism. We need every single tool in the 
toolkit to be sharp and ready to go and that includes the BBG.
    We actually brought a little video here. I think in the 
interest of time, we will not show this now. But if people are 
interested, we launched a show called ``Delusional Paradise'' 
in the Middle East which is a weekly 30-minute documentary 
series that offers firsthand accounts of families who have 
suffered at the hands of Daesh and exposes the brutality and 
ideology and strips its narrative of appeal. Tools like this 
show and ``Current Time,'' which John mentioned, a joint VOA 
and RFE/RL daily program that reports on Russian aggression and 
propaganda, are incredibly powerful. Are we effective and 
impactful in this space as we could or should be? No, not by a 
long shot. However, organizationally we are pointed in the 
right direction and ultimately we believe fervently that our 
ideas will win the day.
    We look forward to working with this committee and Congress 
in making BBG what it should be, a powerful tool for our 
national interest.
    As I said earlier, I have a day job, but BBG is my national 
service. I am incredibly proud of the record year we had at 
Universal with a number of box office global hits, but I have 
to say I am even more proud of the progress we have made here 
at BBG. And it has been an honor to serve my country in this 
fashion. Thank you, Mr. Chairman and members of the committee.
    [The prepared statement of Mr. Shell follows:]

                    Prepared Statement of Jeff Shell

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for inviting me to speak to the unique role that 
the Broadcasting Board of Governors (BBG) and United States 
international media play in advancing our national interests.
    I am pleased to be joined today by my colleagues, Governor Ken 
Weinstein and CEO John Lansing. Alongside the rest of the Board and 
staff at the International Broadcasting Bureau and across the BBG, we 
are working diligently to shape the Broadcasting Board of Governors 
into a unique and powerful tool in the U.S. foreign policy toolkit. The 
BBG team deserves a lot of credit for their consistently excellent 
programming and I want to use this opportunity to thank them.
    Let me also thank the members of this committee for shining a light 
on the important work that the Broadcasting Board of Governors carries 
out on behalf of the United States. Many Americans are not aware of 
Broadcasting Board of Governors, its unique mission and growing role in 
international media.
    Put simply, our job at BBG is ``to inform, engage, and connect 
people around the world in support of freedom and democracy.'' To do 
so, we oversee all nonmilitary international broadcasting supported by 
the U.S. Government, including the Voice of America (VOA), the Office 
of Cuba Broadcasting (OCB), and BBG-funded grantees Radio Free Europe/
Radio Liberty (RFE/RL), Radio Free Asia (RFA) and the Middle East 
Broadcasting Networks (MBN).
    We use these resources to provide news and information to overseas 
audiences that lack adequate sources of objectives news and information 
about their countries and societies, their region, the United States, 
and the world. In short, we put fact-based journalism to work, on a 
global scale, on behalf of the American people.
    Our reach is global. BBG radio, television, Internet, and mobile 
programs are consumed by more than 226 million people each week, in 
more than 100 countries in 61 languages--many of them in communities 
and countries that face organized misinformation campaigns.
    Global media is an area that I understand well. As Chairman of 
Universal Filmed Entertainment Group, my day job, I oversee worldwide 
operations for Universal Pictures. And prior to taking on my current 
role, I served as Chairman of NBCUniversal International in London, 
where I was responsible for overseeing the operations of all 
NBCUniversal International businesses, and as President of Comcast 
Programming Group.
    In my professional experience, international media is marked by 
complexity. In my current job it is my responsibility to ensure that 
Universal's programming remains successful in a rapidly changing global 
media environment. I note similar challenges through my role at the 
BBG, where we not only must contend with a dynamic media landscape but 
also the asymmetric challenge of state and nonstate actors, often well 
funded, who effectively deploy media and digital tools to challenge the 
United States, our values of democracy and freedom, and the very 
existence of objective truth.
    It is critical to acknowledge that in the recent past the BBG has 
not responded as effectively as it could to these growing challenges. 
As with any media organization, be it Universal Pictures or the BBG, 
the responsibility for organizational breakdown and inertia starts at 
the top. Some of our past problems derived from Board dysfunction and 
the failure to link the work of the Board to the day-to-day operations 
of the BBG's global team, and the growing sense of irrelevance and 
inability to ``join the fight'' that these challenges engendered.
    But despite past challenges, two facts remained enduring. First, 
the BBG's mission remained unassailably critical to U.S. foreign 
policy. Second, we boast a team of brave and hardworking individuals 
who work around the world, in relative obscurity and often outright 
danger, each and every day to fulfill the BBG's mission to inform, 
engage, and connect people around the world in support of freedom and 
democracy.
    These facts informed the work of the Board as we sought to overcome 
past challenges and ensure the meaningful impact of BBG efforts across 
the globe. I am happy to report that we are making significant progress 
on this front.
    Our biggest change is that our current Board is fully united behind 
the changes we need to make to ensure BBG's success, and the ways we 
need to operate to do so. We are nonpartisan and comprised of media and 
foreign affairs experts who deeply believe in the BBG mission and the 
need to lead the U.S.' fight against the ``weaponization of 
information'' by our adversaries and challengers. The level of 
cooperation and expertise on this Board is the best I have seen, be it 
inside government or outside.
    Most importantly, we recognize that the Board's role cannot be 
operational. The BBG is a complex institution and it is beyond the 
ability of any appointed Board, comprised of appointees with day jobs, 
to manage it effectively. Recognizing this fact, the Board elected to 
shift all the powers it could legally delegate to a Chief Executive 
Officer, who would oversee all aspects of U.S. international media and 
provide day-to-day management of BBG operations.
    A critical act in this regard was to select John Lansing to serve 
our CEO. John's experience and temperament make him the perfect person 
for this job. He is a recognized leader in media management, having 
served nine years as President of Scripps Networks, where he is 
credited with guiding the company to become a leading developer of 
unique content across various media platforms including television, 
digital, mobile and publishing. Equally important, he is a journalist 
at heart--formerly an award-winning photojournalist and field producer, 
assignment manager, managing editor, and news director at multiple 
television stations earlier in his career.
    And we have taken steps to modernize our operations as well. For 
instance, in 2014, we undertook a comprehensive review of the efficacy 
of shortwave radio as a distribution platform for U.S. international 
media, which resulted in a shift in focus to digital and mobile tools 
as our future tools of choice, because that is where our audiences are 
now and where they will be in the future. CEO Lansing will address our 
aggressive shift to digital media in his testimony.
    Additionally, the BBG is embracing new tools to support the 
fundamental right of information freedom. Through the Internet Anti-
Censorship Program and Open Technology Fund, we are supporting 
journalists, bloggers, civil society actors, and activists to use the 
Internet safely and without fear of interference.
    Finally, through the strong presence on the Board of Under 
Secretary of State for Public Diplomacy and Public Affairs Richard 
Stengel, we are more coordinated with the Department of State than ever 
before. Closer coordination has allowed the BBG to use its unique 
resources to impact in some of today's most important foreign policy 
arenas, such as on the digital battlefield in Ukraine or the global 
threat of violent extremism.
    We recognize we also need to be better coordinated with Congress, 
which is why we are deeply appreciative of the opportunity to speak to 
this committee today. In taking the above listed steps, and many 
others, the current Board has demonstrated its clear commitment to 
positioning BBG to succeed in the modern media environment. We look to 
Congress to provide certain additional authorities that will further 
ensure our success.
    First, and foremost, we need the Congress fully enshrine the CEO as 
the operational lead at BBG. While the Board has elected to delegate 
key powers to the CEO through its own volition, it is clear that we 
need to institutionalize this role through legislation so that all 
future Boards can benefit from expert operational leadership.
    Furthermore, we not only need to enshrine the role of the CEO, but 
we also need to fully empower the position to serve all relevant 
functions as required by the Board. As I mentioned previously, the 
sitting Board elected to delegate all authorities that it legally could 
to the CEO--but unfortunately the Board lacks the authority to fully 
modernize in this regard. We require legislation to authorize the Board 
to delegate the remainder of its authorities, required for effective 
and efficient day-to-day operation of the agency, to the CEO, so that 
the Board may focus on strategic oversight and governance.
    This includes the currently ``non-delegable'' authority of the 
Board to reallocate even the most de minimis dollar amount of funds 
across the various bureaus and federal and grantee broadcasting 
entities of the BBG when requirements change. In other words, in order 
to move even one penny between the entities, even under the most urgent 
of circumstances, the CEO must seek a vote of the full Board.
    Beyond these management fixes, we also need to ensure further 
structural and operational agility, if we are to successfully counter 
today's dynamic challenges in the information space. Unfortunately, 
many of our existing authorities, a number of which date back to 1948, 
or thereabouts, are either obsolete or incomplete for our purposes as a 
21st century organization.
    A key area in this regard is surge capacity. When crises arise, BBG 
is often asked to surge its efforts to the affected region quickly. The 
International Broadcasting Act requires the agency to do so by 
providing for ``the capability to provide a surge capacity to support 
United States foreign policy objectives during crises abroad.'' But, as 
a surge generally requires increased content and broadcasting, we 
require not just enhanced authority to operate notwithstanding certain 
standard processes, but also the ability to turn to a ready source of 
funding. For us, this means the authority to receive or fully utilize 
funds from other agencies, or to make use of a no-year fund established 
for this purpose.
    With these fixes, the BBG will be best positioned to thrive in its 
mandated role as a unique tool in the U.S. foreign affairs toolbox, and 
will be a powerful force for countering the challenges posed by the 
growth of misleading or propagandistic information globally.
    Mr. Chairman, I would like to conclude on a more personal note. As 
Chairman of Universal Filmed Entertainment Group, I have been lucky 
enough to lead an organization that has secured its most profitable and 
successful years in memory. We released films such as ``Jurassic 
World,'' ``Furious 7,'' and ``Straight Outta Compton'' to critical 
acclaim and commercial success. I am immensely proud of that success. 
But that pride at these successes pales in comparison to how proud I am 
to serve my country as Chairman of the Broadcasting Board of Governors, 
and the incredible progress we have made over the past 2 years on 
behalf of the American people.
    I look forward to working with the Congress, and this committee, on 
our work still to come.

    The Chairman. Thank you very much.
    Mr. Weinstein.

   STATEMENT OF HON. KENNETH R. WEINSTEIN, HUDSON INSTITUTE, 
  PRESIDENT AND CEO; BROADCASTING BOARD OF GOVERNORS, MEMBER, 
                         WASHINGTON, DC

    Mr. Weinstein. Thank you, Mr. Chairman. Chairman Corker, 
Ranking Member Cardin, other members of the committee, I am 
truly honored to testify today about the Broadcasting Board of 
Governors and its importance and the critical operating 
environment we operate in at this moment when reform is being 
considered.
    I have submitted my written testimony already, and let me 
just issue an abbreviated version here verbally.
    Let me first begin by saying how pleased I am at the BBG 
that we have an incredible CEO, John Lansing, on board, and 
John is someone who brings extraordinary experience with him, 
and especially pleased to work with Chairman Jeff Shell. Jeff 
is also an extraordinary leader. You have heard about the 
dysfunctions of the BBG boards of the past. That is no longer 
the case. We are Democrats and Republicans. Jeff and I do not 
agree on many issues about how the United States should respond 
to various crises around the globe, but we do agree on what the 
BBG is doing and that agreement is wide through all of our 
members, including Ambassador Ryan Crocker, arguably the most 
distinguished diplomat who has served the United States in the 
last half century, as I have heard him referred to; Ambassador 
Karen Kornbluh, the former Ambassador at the OECD in Paris; 
Matt Armstrong, a public diplomacy expert; and Michael Kepner, 
a communications expert. The strong leadership here transcends 
partisan lines.
    And we need this right now because we are in an incredible 
context for U.S. international media, one, as we all know, of 
rapid geopolitical change, instability in world affairs, 
instability which our strategic competitors seek to benefit 
from, whether it be Russia, China, Iran, ISIS, and other 
Islamist extremists bringing significant assets against us on 
multiple levels. And last week's attack in Paris by ISIS was 
one example of Russia's presence in Syria, de facto alliance 
with Iran another.
    This change, this geostrategic instability occurs and 
rising threat level also occurs also at a time of massive 
technological innovation, a time when the enemies of liberty 
are more adept than ever at using cost-effective technologies 
that equalize the price of dissemination of their false 
accounts of information to the cost of--and sometimes gives 
them a cost advantage over our attempts to broadcast the truth.
    Both elite and public opinion have proven unsure and 
unsteady about how to react to unprecedented policy change and 
into this breach have stepped massive new state propaganda 
agencies. Peter Pomerantsev has termed this the ``weaponization 
of information,'' the use of the tools of a free society, 
including media and social media to defend the indefensible, 
tyranny, kleptocracy, invasion, murder, premodern views of 
society that deny individual rights. And today we have seen the 
massive growth of state-sponsored platforms, whether it be RT, 
which according to the State Department and its various other 
associated media outlets, spends $1.4 billion a year to present 
the distorted message; CCTV which, according to the Columbia 
Journalism Review, spending 19 times what the BBC spends in 
English each year. We saw the reports last week of Radio China 
international outlets in the United States that Reuters 
highlighted. And so this makes a very complex background 
against which we have to respond.
    There is also another major challenge, as we know, which is 
the transnational power and appeal of groups such as ISIS that 
use digital communities without geographic limitation. 
Technology compresses the time and space needed for 
disinformation to spread, and they have spread this 
romanticized vision of the caliphate through the social media 
not just in the Middle East but in Central Asia, in Europe, as 
we saw last week, Africa, and elsewhere.
    The sheer volume of available information has a major 
impact on how global audiences consume information and how they 
make social, economic, and political decisions. This a very 
different environment during the cold war when there was an 
information vacuum that Voice of America and Radio Free Europe 
were able to step into to bring about significant change.
    The BBG--our global reach and our credibility have a 
critical role to play in correcting falsehoods and holding 
people and institutions accountable. Let me simply note that 
having reviewed the complex environment that the BBG is 
operating in, let me touch briefly on a few key areas where we 
are having impact.
    Responding to Russia. Russia, as we all know, has turned 
the weaponization of information into an art form. To respond, 
we are engaging key audiences on the Russian periphery and 
globally by providing facts, the reality of United States and 
Russian activities.
    You have already heard about ``Current Time,'' the VOA-RFE/
RL joint program, 30 minutes a day in Russian. It is now being 
expanded into Central Asia. It is now in nine countries and 25 
media outlets available to digital audiences worldwide with a 
following beginning in Russia of 2 million people online.
    More than 500 Central Asian media outlets have already 
subscribed to RFE/RL's Central Asia news wire. Our ``Footage 
vs. Footage'' feature, a new daily video product that contrasts 
how Russian media and global media report on the same events, 
has also become an important and useful tool.
    Let me note what we are doing to cover jihadi narratives. 
Violent jihadi narratives, as we all know, often go unaddressed 
within local media environments. To counter these narratives, 
we focus on de-legitimizing extremism by reporting on and 
exposing the realities of extremist groups, as Jeff noted, and 
promoting diverse voices in the Muslim community who are 
otherwise overlooked in biased media environments. The Middle 
East Broadcasting Network's ``Raise Your Voice'' campaign 
continues to encourage citizens across the Middle East to speak 
out and be part of the discussion about the fight against 
extremism. We are seeking to create communities of discussion 
among moderate Muslims whom we give platforms to disseminate 
their ideas.
    There are lots of other examples I could cite: Iran, China, 
Internet freedom, teaching English. But let me just quickly 
cite a couple of key wins the last few months.
    In Nigeria, Nigeria was facing a serious epidemic of polio, 
and the VOA partnered with the CDC to get news out to end the 
distortions about the dangers of vaccines in Nigeria. And all 
of a sudden, as of the last month, Nigeria is no longer on the 
list of countries where polio is endemic.
    In Burundi, after an attempted coups, VOA remained the only 
station, the only private station, on the air after the 
government shut down all privately owned radio stations.
    In short, let me conclude by noting we are in a moment of 
rapid geopolitical change, significant technological evolution, 
and there are many unprecedented challenges in the global 
information space. In the face of these challenges and with 
budgets that are far exceeded by those or our strategic 
geostrategic competitors, the BBG is having significant impact 
in some of the most difficult locations on earth.
    We are all for reform, but we do believe that these 
successes are a foundation to build on, and we hope that the 
committee will remain cognizant of our growing success as it 
considers reform.
    Thank you very much.
    [The prepared statement of Mr. Weinstein follows:]

                Prepared Statement Kenneth R. Weinstein

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for inviting me to speak today on the impact that 
the Broadcasting Board of Governors (BBG) and United States 
international media has around the world. We, as a nation, need to 
remain vigilant to the ways in which information and ideas, as well as 
disinformation and false ideologies, affect our national security, and 
I thank the committee for holding today's hearing. I am pleased to join 
my colleagues, BBG Chairman Jeff Shell and CEO John Lansing, at today's 
hearing.
    I have served as a Board Member on the Broadcasting Board of 
Governors since October 2013 and as the President and CEO of the Hudson 
Institute since March 2011. As a political theorist who has spent the 
past few decades working on U.S. foreign policy and its impact in Asia, 
the Middle East and Europe, I have had the opportunity to analyze the 
strategic context, direction, and efficacy of both U.S. foreign policy 
and U.S. civilian international media.
    Today, I will describe the overall operating context for BBG 
international media, examine some of the challenges and opportunities 
inherent in that context, and note important ways that BBG reporting is 
impacting audiences in support of U.S. foreign policy and freedom in 
this space.
    U.S. international media operates in an environment of rapid 
geopolitical change and growing instability in world affairs. Last 
week's horrific terror attacks in Paris are just the latest example of 
the challenging international environment, and one in which tragic 
events in one country are increasingly linked to those in others.
    The broad features of recent geopolitical change include Russia's 
aggression in Ukraine; the spread of ISIS and other jihadist groups in 
the Middle East, Africa, Central Asia, and now, alas, Western Europe; 
Iran's growing tentacles in the Middle East; economic slowdown in 
China, and growing assertiveness in the South China Sea.
    This geopolitical instability and rising threat level occurs at a 
time of mass technological innovation, reducing the costs for 
communication to both large and targeted audiences. Across the globe, 
the enemies of liberty have become increasingly adept at marshaling the 
same cost-effective technologies that make the dissemination of 
information much less expensive today than it has ever been in human 
history.
    Against this backdrop of geopolitical evolution, both elite and 
public opinion has proven ill-prepared about how to react to 
unprecedented policy change. At this time of uncertainty, state 
propaganda agencies have stepped into the breach, making what Peter 
Pomerantsev of the Legatum Institute termed the ``weaponization of 
information'' a central facet of international conflict.
    The enemies of free societies--both state and nonstate actors--have 
become increasingly skilled at ``weaponization of information,'' 
aggressively using the tools of a free society, including the media and 
social media, to distort reality, and defend the indefensible: tyranny, 
kleptocracy, murder, religious intolerance and premodern visions of 
human society that deny fundamental human rights. They do so 
proactively, with creativity and attention to production value and a 
targeting of audiences that is far more sophisticated than the Soviet 
Union ever did, thereby weakening intellectual and moral opposition to 
their policies abroad, highlighting shortcomings of Western societies 
through a distorted lens, or fomenting anti-Western sentiment at home 
to justify inexcusable actions by their governments abroad.
    Well-funded state propaganda outlets designed to have the patina of 
impartial media outlets include Russia's RT, Sputnik, Ruptly, Rossiya 
Segnodnya, and other secondary platforms, which according to State 
Department estimates spends over $1.4 billion annually on propaganda. 
The Columbia Journalism Review estimates that CCTV's English language 
efforts will be 19 times the annual budget of the BBC, the world's 
largest news organization. According to The Atlantic, Al Jazeera spent 
$1 billion to start Al Jazeera English and the network gets $100 
million for its annual budget. These differing platforms target 
specific audiences, especially in the West, seeking to undermine the 
possibility of a firm and united Western response to current policy 
crises.
    A second major challenge the BBG faces is the transnational power 
of and appeal of groups such as ISIS. As predictable political borders 
have eroded, so have the traditional boundaries that once shaped the 
media landscape. Today, communities and conversations arise in a 
digital space without geographic limitation, and technology massively 
compresses the time and space needed for disinformation and influence 
to spread.
    Social media and the Internet have proven fertile ground, not just 
for Russian disinformation but also for spreading Islamic radicalism, 
free from the more truthful filter of traditional journalism. Through 
social media, ISIS, itself in competition with other radical Islamist 
groups, projects a romanticized vision of life under the Caliphate to 
disaffected men and women in Western Europe, the Middle East, Africa, 
and Asia. Teenagers in Britain, Turkey or Saudi Arabia may follow the 
dictates of radical Imams on YouTube and abandon the comforts of home 
for war-torn regions of Syria or Iraq.
    These trends have important ramifications for how BBG, and others, 
target our intended audiences. Information-seeking communities and 
individuals get news updates not solely through established media 
outlets in limited geographical locations, but through their preferred 
information platforms. CEO Lansing will speak to this issue in greater 
detail in his testimony, so I will simply note here that moving forward 
we must continue to embrace digital and social media tools as key 
platforms for our content, as these are the tools that our priority 
markets--youths and future influencers--already use on a regular basis.
    A second challenge is the sheer volume of available media and the 
effect that has on how global audiences consume information and, 
ultimately, make social, economic, and political decisions. Every day, 
global communities are awash in information. But not all information is 
created equal. From Crimea, to Syria, Northern Nigeria, and Southeast 
Asia, propaganda and censorship foment hate and confusion, monitor and 
suppress dissent, activate acts of terror and roll back hard- won 
freedoms. Actors from ISIL to China to Russia are using information not 
just to ``win the news cycle,'' but to shape the very choices of 
statecraft.
    This current context stands in stark contrast to the cold war, 
during which certain global actors sought to prevent the flow of 
information to the point of creating vacuums in key communities, which 
the United States moved to fill with reporting through Voice of 
America, Radio Free Europe, and other tools. Today, we see the 
opposite: an abundance of false, doctored, or misleading information on 
a multitude of different platforms for consumption.
    A key BBG challenge is ensuring that our high-quality reporting 
serves as a beacon for accurate, fact-based journalism in spaces awash 
with dishonest, misleading, or government-controlled information. In 
environments inundated with propaganda or falsehood, the best antidote 
is objective, fact-based reporting that arms citizens with the truth.
    As such, BBG's global reach and journalistic credibility play a 
vital role in correcting falsehoods, holding people and institutions 
accountable, and demystifying U.S. policy in these communities.
    Along these lines, I would like to touch on three key areas where 
the BBG is operating with impact in the modern media space.
                          responding to russia
    The Kremlin is actively using propaganda and disinformation as a 
tool of foreign policy and to maintain support at home. To counter 
Russian propaganda, the BBG engages key audiences inside Russia, along 
the Russian periphery, and globally to provide them with the realities 
about Russian and U.S. activities and, importantly, their context. As 
elsewhere, we have an appreciation of different audiences that we seek 
to reach, and want our audiences to be empowered by facts, the most 
effective strategy for countering propaganda.
    Since the fall of the Yanukovych government in Ukraine in February 
2014, and the ensuing occupation and attempted annexation of Crimea and 
Russian aggression in eastern Ukraine, the BBG has dramatically 
increased programming to the region. Voice of America (VOA) and Radio 
Free Europe/Radio Liberty (RFE/RL) have added or expanded more than 35 
new programs on multiple media platforms in Russian, Ukrainian, and 
other languages to reach new audiences in Ukraine, Russia, elsewhere in 
the former Soviet space, and around the world.
    U.S. International Media are a real force in Ukraine, as I have 
seen from my travels there. We have every reason to be proud of our 
journalists. We have every reason to be proud of our journalists in the 
field. Our coverage of the protests on the Maidan was unparalleled and 
our brave journalists at RFE/RL remained on the job in the face of 
intimidation and physical violence; their continuous and fact-based 
reporting of violence perpetrated by forces loyal to the Yanukovich 
government was critical to Ukraine's democratic revolution. Our 
journalists, whether at RFE/RL or Voice of America, are widely 
respected as among the best in the business, and our diverse 
programming, which at times has aired programs critical of the 
Poroshenko government, has broad appeal.
    The BBG's response to Russian propaganda represents five broad 
lines of effort:

  <bullet> Focus programming to impact strategic audiences;
  <bullet> Expand partnerships to reach audiences in local markets and 
        influence the news agenda;
  <bullet> Move resources to digital platforms to directly engage 
        audiences;
  <bullet> Increase research on the ground to better understand 
        audiences and impact;
  <bullet> Utilize BBG capabilities and expertise to meet unfilled 
        strategic needs and opportunities.

    The BBG is already seeing strong impact in the region. More than 
500 Central Asia media outlets have already subscribed to RFE/RL's 
Central Asia news wire service, which launched in September in Russian 
and vernacular languages. Voice of America and RFE/RL programs are now 
carried on more than 120 television, radio and Internet outlets in 
Ukraine.
    RFE/RL continues to ramp up DIGIM, its new social-media driven 
digital reporting and engagement service, which includes the ``Footage 
vs. Footage'' feature, a daily video product that contrasts how Russian 
media and global media report on the same events, provides the facts of 
a case and pointing out inconsistencies and falsehoods in Russian 
reporting.
    Additionally, RFE/RL and Voice of America have expanded ``Current 
Time,'' their popular daily 30-minute Russian-language television news 
program into Central Asia. It is now on the air in nine countries via 
25 media outlets, and ``Current Time'' is available to digital 
audiences worldwide. In Russia, where placement on domestic stations is 
not possible, ``Current Time'' is available on NewsTube.ru, Russia's 
largest news site. Our new research shows that nearly 2 million people 
in Russia are watching ``Current Time'' weekly online, and that it is 
most popular among 15-24 year olds.
    Through these programs we engage the audience's--often silently 
held--interests and concerns. Russians, for instance, are considering 
whether their country is heading in the right direction. They are 
weighing whether Putin's political and social reality is where they 
want to raise their children, start or grow a business, get an 
education; these are core questions that speak to hopes and 
aspirations. In other words, the future media environment is not just 
about countering Kremlin propaganda, but a campaign for the future of 
the region.
    It is worth noting that the BBG is not solely engaged in reporting 
in this area; we also provide equipment and journalism training to key 
populations. For example, following consultations in June with 
Ukrainian authorities and our Department of State, BBG provided 
broadcasting transmission equipment to Ukraine to facilitate delivery 
of radio and television programs to audiences in areas controlled by 
Russia or Russian-backed separatists. The equipment: a new, 134-meter 
tower; a 60 kW solid state Medium Wave transmitter; and three portable 
FM stations, will be used as part of a low-power network to be deployed 
near contested areas.
                   covering violent jihadi movements
    Extremist narratives too often go unaddressed within local media 
environments and digital echo chambers. These narratives are often tied 
to extremists' alleged religious virtue and organizational 
invincibility, with a toxic additive of anti-American and anti-Semitic 
conspiracy theories.
    Our journalism exposes the gap between rhetoric and reality--
ideologically and organizationally--of violent jihadist groups. We do 
this through objective reporting that adheres to the highest standards 
of professional journalism. By covering violent extremism, we expose it 
for what it is.
    Extremist groups have excelled at recentering the news cycle on 
their violence. To counter this tactic, the BBG is pursuing several 
strategic goals in this space:

  <bullet> Delegitimize extremism by reporting on and exposing the 
        realities of extremist groups;
  <bullet> Make communities more resilient to extremism through 
        engagement;
  <bullet> Promote diverse voices in the Muslim community otherwise 
        overlooked in biased media environments.

    While other parts of the government directly support civil society, 
the BBG is uniquely positioned to elevate moderate voices--from the 
street to the elites. We cover local issues of concern, and provide 
constructive outlets for communities to discuss the issues that matter 
to them.
    For example, the Middle East Broadcasting Networks' (MBN) ``Raise 
Your Voice'' campaign continues to successfully encourage citizens 
across the Middle East to speak out and be a part of the discussion 
about the fight against extremism. As a result, MBN has seen a large 
surge in digital traffic and on social media; in last 4 months over 
590,000 votes have been cast on daily ``Raise Your Voice'' polls and 
MBN has 6.2 million followers on Facebook.
    As part of the ``Raise Your Voice'' campaign, MBN launched 
``Delusional Paradise'' in September, a weekly 30-minute documentary 
series comprised of firsthand accounts of families who have suffered at 
the hands of ISIL. This is precisely the kind of work the BBG should be 
doing: ``Delusional Paradise'' presents powerful firsthand and deeply 
moving accounts and interviews of families and communities that have 
suffered at the hands of ISIL. The program includes chilling interviews 
with families who have lost loved ones to ISIL recruitment, and 
compelling interviews with families victimized by ISIL attacks, 
including an interview with Jordanian pilot Muath al-Kasasbeh's family 
after he was burned to death by ISIL.
                            internet freedom
    A third prominent challenge for us is the fundamental importance of 
information freedom. This is an enduring and central role for the BBG, 
from the cold war to today.
    Today, information freedom means the unfettered ability for people 
around the world to engage and connect with one another, to be 
informed, and ultimately to use that information to change their lives 
and the lives of their community for the better.
    In 2002, the BBG created the Internet Anti-Censorship Program (or 
``IAC'' program) to accomplish two major goals. The first is to support 
journalists, bloggers, civil society actors and activists to use the 
Internet safely and without fear of interference. The second is to 
empower world citizens to have access to modern, unrestricted 
communication channels and to allow them to communicate without fear of 
repressive censorship or surveillance.
    Using funds provided by Congress for censorship circumvention 
programs, our International Broadcasting Bureau funds large scale proxy 
servers, such as Psiphon, and other means to defeat censorship. The 
BBG's investment and support of multiple circumvention technologies has 
helped to create a new generation of mobile apps that directly 
challenge and overcome the powerful government-enforced firewalls of 
Iran and China. Our web proxy servers allow more than 1 billion 
Internet sessions a day. Users from the Middle East, North Africa, 
Eurasia, and East Asia are able to access news and information outside 
of their tightly controlled information markets.
    Through our Open Technology Fund, we underwrite apps and programs 
for computers and mobile devices that help to encrypt communications 
and evade censorship. OTF's approach to identify and support next-
generation Internet freedom technologies has led to the development of 
first-of-its kind tools that encrypt text messages and mobile phone 
calls, detect mobile phone censorship and intrusion efforts, and allow 
transfer of data without use of the Internet or mobile networks. Such 
efforts allow users facing constantly changing censorship methods to 
continue to communicate safely online.
    We are seeing major success in this area. The BBG has Internet 
freedom tools working in 200 languages. BBG/OTF's tools have supported 
nearly 1 trillion circumvention page views over the past year and the 
delivery of over 1 billion emails and newsletters delivered behind the 
Great Firewall of China every year. BBG currently provides the fastest 
Internet connectivity in Cuba, via satellite.
    The success of our Internet Freedom work is at the core of our role 
as journalists and reflects our unique capabilities within the U.S. 
Government. In the digital era, the freedom to speak and the freedom to 
listen remain essential. With the support of Congress, we aim to 
rapidly expand our presence and operations in this area.
                   examples of other areas of impact
    The above cases are just a few examples of BBG's powerful impact in 
areas that are critical to U.S. foreign policy. But they are by far not 
the only instances. Some are more targeted but highly critical.
    For example, in Nigeria, the eradication of polio was halted by 
rumors and misinformation about the safety of international vaccination 
programs. In response, Voice of America partnered with the Centers for 
Disease Control to carry out a multiyear campaign of reporting, Public 
Service Announcements, townhall meetings, and media trainings. In part 
due to our work to eliminate falsehoods surrounding the transmission of 
and vaccination against polio, Nigeria was just last month removed from 
the CDC's list of countries with endemic polio.
    During protests and an attempted coup sparked by Burundian 
President Pierre Nkurunziza's decision to run for a third term, the 
government targeted independent media, forcibly closing down all 
privately owned radio stations. However, VOA remains on the air via an 
owned-and-operated FM station in the capital, Bujumbura, which can be 
heard in most of the small country, as well as in refugee camps in 
Tanzania and the DRC. VOA is now one of the only available sources of 
news and information in Kirundi--the only language spoken by nearly all 
Burundians--as well as French and Swahili.
    And, earlier this year, Somali President Hassan Sheikh Mohamoud 
contacted VOA's Somali Service to thank it for broadcasting a series on 
democratic constitutionmaking that he said was extremely valuable in 
his country's constitutional drafting conference in January 2014.
    In conclusion, at a time of rapid geopolitical change and 
significant technological evolution, there are many new and 
unprecedented challenges in the global information space. In the face 
of these challenges, and with budgets that are far exceeded by those of 
our geostrategic competitors, the Broadcasting Board of Governors is 
having significant impact in some of the most difficult locations on 
earth. The Board views these successes as a foundation to build on and 
we hope that the committee will remain cognizant of our growing success 
as it considers potential reforms.

    The Chairman. Thank you and thank you for trying to rapidly 
get through the story you are trying to tell about BBG and all 
of you for your service.
    Look, we have all traveled the world and seen how in many 
places we are having it handed to us relative to information. 
We would call what they are doing propaganda. As Lansing has 
said, we would call what we are sending out the actual news. 
But the fact is we know in places like eastern Ukraine and 
other places we are having it handed to us.
    So we thank you for the job you are doing. We do understand 
there have been changes, positive changes. I will say most of 
us have heard some pretty negative exit interviews from former 
BBG board members and some current--not today--but while they 
were serving a few years ago. So we are glad the environment is 
better there.
    I think all of us constructively want to put in place some 
reforms to make BBG even better for the long haul. You happen 
to have a board that is getting along better today. Obviously, 
that is not institutionalized.
    So let me just ask a few questions.
    First of all, you all have decided to have a full-time CEO 
on your own. Is that correct?
    Mr. Shell. That is correct, yes.
    The Chairman. You could change that immediately. Is that 
correct?
    Mr. Shell. We could change that immediately.
    The Chairman. And so what kind of status--I know Mr. 
Lansing has had a great private sector career and can do this 
as public service. What status do you have right now within the 
organization? I mean, can they fire you tomorrow? How is this 
set up?
    Mr. Lansing. I serve at the pleasure of the board right 
now.
    The Chairman. Do you have a contract?
    Mr. Lansing. No.
    The Chairman. Is there a reason for us to not make you 
permanent institutionally through legislation? Or is there a 
reason for us to at least consider causing there to be a full-
time CEO? Because we had part-time board members trying to run 
an organization that Senator Perdue knows for sure does not 
work. Should we do that?
    Mr. Lansing. I would say yes, especially having now been 
involved for most of 3 to 4 months, a few months prior to 
joining officially and joining officially in September.
    The reality is--and it would be no surprise to any of you 
that are business men and women--that operating a complex 
business with eight or nine appointed governors who are part-
time and meet four or five times a year is a recipe for--to 
call it dysfunction would be to assume that could somehow be 
functional. It is designed to be dysfunctional.
    The Chairman. Let me ask you this. And I thank the board, 
by the way, for having the foresight to bring in a full-time 
CEO that actually knows something about what is occurring 
there.
    Do you have the authorities--even though they have put you 
in the position, do you believe have authorities to do all 
those things that will be necessary to appropriately reform 
BBG?
    Mr. Lansing. I do, Senator Corker. I have a fantastic 
board. They are very supportive, but they operate as a good 
board does with oversight and guidance and policy review. And I 
feel like I have a very open channel particularly with Chairman 
Shell who I have a regular meeting with on a weekly basis. But 
they have delegated the authority to me to make the decisions 
we need to make to be the most impactful we can be.
    The Chairman. There are a lot of people that disagree with 
that, just for what it is worth, even heads shaking behind you 
very negatively regarding that. So I do think that is something 
we want to pursue.
    Let me ask you this. There has been a push on the House 
side to consolidate the grantees. You know, we have multiple 
entities that now receive grants. There has been a movement by 
their legislation to consolidate. I would just love to have 
y'all's brief opinions on that.
    Mr. Shell. I will respond to that. Can I go back to the CEO 
just one second, Mr. Chairman, if you do not mind?
    The Chairman. Yes, sir.
    Mr. Shell. We are fortunate right now at the board that we 
have a great dynamic and an excellent CEO. I think you very 
smartly pointed out that this is a moment in time. One of the 
things that is interesting is by law we can delegate certain 
authorities to John and certain authorities we cannot delegate 
to John by law. And so we can give him the moral authority--for 
example, something as fundamental as language services. John 
does not have the authority by law to close a language service 
or surge resources into another language service. So even 
though the board can say, John, you are our proxy in that--and 
right now, because of our working relationship, it is working--
it could very easily not work tomorrow. So there are a number 
of authorities I would say that John has by virtue of the 
operating rhythm right now that actually we would urge all of 
you to consider memorializing and taking out of the hands of 
the board and delegating to a CEO so that the next CEO can have 
the same authority that John does with a different board.
    The Chairman. Since naturally it would be more difficult 
for him to ask for more authority than for you to share with us 
the additional authority you think we ought to give him, I 
think I will focus more on you relative to that question.
    But if you would move along to the consolidation of 
grantees.
    Mr. Shell. Yes.
    The Chairman. Thank you for that input. That is helpful.
    Mr. Shell. I think on the consolidation question, I think 
it would be a smart thing to consolidate grantees, and I will 
tell you why. And Senator Cardin said this a little bit in his 
remarks. You do not know when the next hot spot is going to 
break out in the world. We do not know what tomorrow's battles 
will be today. And an 18-month process and 24-month process of 
resources does not work in this environment. It does not work 
in the military. It does not work with respect to us. And the 
grantees all have somewhat arbitrary geographic kind of 
boundaries. So if you decide, for example, that you want to 
take money out of a place in Asia and surge it into the Middle 
East to counter violent extremism, it is two different entities 
that you have to deal with and it is much more difficult to do 
that. So a consolidation of the grantees would simplify our 
process to a certain extent and make it much easier to surge 
funds.
    Once again, it is one of the areas we have made work today 
under John's leadership. It is working well today, but 
institutionalizing it, that in the long run would be very smart 
in my view.
    The Chairman. So moving along that same path, there seems 
to be some contention over the thought of then having a 
separate board for the grantees. So there is agreement that the 
CEO by the board should have more institutional powers. There 
is an agreement, I think, that the grantees should be 
consolidated so you can move more quickly as you just 
mentioned. There seemed to be some dissension over whether the 
grantees ought to have a different board than BBG itself. And I 
wonder if you all might--it seems to me that that would make a 
lot of sense to have a different board, otherwise you wonder 
why you have grantees in the first place. So it seems to me 
that editorial content, having some independence, having people 
who are closer to the clients that they are serving would make 
a lot of sense. Some people disagree with that. I would love to 
hear your thoughts on that.
    Mr. Shell. Well, I will jump in and then my fellow 
witnesses can talk about it.
    That is probably the part of the House bill that I disagree 
the most strongly with. I think that we are an organization 
with one mission that has fights all over the globe in 
different fashions in different ways with the same mission. And 
I think that having two boards and two CEOs makes absolutely no 
sense. It is like having the Air Force and the Marines in one 
organization with one CEO and having the Army and the Navy in 
another organization with another CEO. So it has nothing to do 
with me keeping my job. I have a day job. This is not what I 
want to do.
    The Chairman. Thank you. You have answered the question. 
You know, it is the same thing I think you said in your 
testimony.
    So the grantees, as I understand it--100 percent of their 
funding comes through you guys and the Federal Government. If 
that is the case, why are the grantees not just part of BBG? I 
mean, it is a weird thing to me to understand, that either the 
grantees are separate or they are not separate. Explain to me 
why we have various entities.
    Mr. Shell. It is part of the legislative history of this 
organization that did not get built all at once. It got built 
over time in different ways. It also is the grantees, for the 
most part, are private corporations, not Federal agencies, 
whereas the BBG, the VOA is a Federal agency. So there is a 
little bit of a distinction between Federal and nonfederal. But 
I think if you were going to start with a blank piece of paper 
and recreate this agency, as you all are looking to do, you 
would make it all one organization. It is the same mission.
    The Chairman. I have additional questions, but as a 
courtesy, I am going to stick within the timeframe. Go ahead.
    Senator Cardin. Well, thank you, Mr. Chairman. I found your 
exchange to be very helpful.
    You are correct. All of us have traveled over the world and 
have seen the value of VOA and the different NGO work that is 
being done. And the NGO work does complement the Voice of 
America. So it is a good mix. In my work on the Helsinki 
Commission, numerous times I have visited the people who do the 
work and am always impressed by their dedication. So it is good 
to have you all here. Thank you very much for your efforts.
    I want to get to the point I raised initially. Currently 
your budget is approved by the appropriators with line items to 
the NGOs basically. And it is based, I assume, in part by your 
recommendations, but it is done well in advance of knowing the 
current circumstances around the world and where priorities 
need to be.
    Also, this is the authorizing committee. Nothing against 
the appropriators. But we have the responsibility to set 
priorities as it relates to the use of these resources in 
advancing American interests. And it would seem to me that if 
we were going to reform--and I hope we do because I agree with 
the CEO and the other issues you are talking about--we should 
look at a way in which Congress and your agency can be closer 
in touch as to what the policymakers believe the priorities 
should be and the flexibility you need to meet changing 
circumstances and reports to us so that we keep that working 
relationship. It seems to me it also gives you a better 
advocate here in Congress to understand what you are doing.
    So I would hope, as we look at a reform bill, that we have 
your input as to how this committee and the comparable 
committee in the House of Representatives, the Foreign Affairs 
Committee, can carry out our responsibility as authorizing 
committees as to how the different regions are funded and the 
missions of the different regions as it relates to furthering 
U.S. policy objectives.
    Any thoughts on that?
    Mr. Weinstein. We certainly would welcome the input. The 
authorizing committees are critical to us, to our work, and we 
certainly would welcome your input as we go forward, 
absolutely. Because of the appropriations cycle, it is 
oftentimes very challenging to handle complex geostrategic 
crises that arise. So input is always very welcome.
    Senator Cardin. I would just point out I have been on this 
committee since I got to Congress in 2007. And yes, I did know 
about your work but not in relation to our committee. So I do 
think it would be better invested for this program, Mr. 
Chairman, if there was a more direct input that the authorizers 
have in the work that you are doing. Just a suggestion that 
might be helpful.
    I want to get to Internet freedom. You mentioned this in 
your written testimony. But obviously, access to the Internet 
is a critical tool, and the censorship that we are seeing in so 
many countries to block their citizens from getting access to 
the Internet very much compromises the free of flow of 
information, which is one of your objectives.
    Do you have the resources and strategy to deal with the 
anticensoring type of opportunities we have so that people in 
these countries that have restricted press can get better 
access to the Internet?
    Mr. Lansing. We do, Senator Cardin, although we will be 
seeking even more resources. In the past fiscal year, we had 
$14.5 million that went toward investments in various 
technologies to allow people who were being blocked from the 
Internet to access the Internet. We are in the process of 
building a framework of governance around those grants of 
dollars to make sure that we can protect that freedom and also 
guard against any misuse of that technology, and we want to 
guard against that at the same time. But we see that as a role 
that we developed over the last 3 years that we can continue to 
invest in and have greater impact around the world by opening 
up the free Internet.
    Senator Cardin. Well, I think it is a very important part 
of the mission, obviously, as you point out. And I should 
emphasize that. We want to maintain the journalistic integrity 
in the work that is being done, and the role for Congress must 
not compromise that.
    I agree with Senator Corker. We are fighting propaganda. I 
understand that. But the way we fight propaganda is through the 
truth, through information, and part of that is the Internet. 
And we should not be the only society that is burdened by the 
Internet. They should also have those issues in their country. 
So I really do think it is a mission that we need to take on a 
very high priority.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    I want to thank the three witnesses today for their public 
service. This is a thankless job, as I can well relate.
    I am chair of the subcommittee that oversees the BBG, and I 
am eager to work with you guys to make this more effective and 
productive in the current environment. In my opinion, we have 
got a global security crisis. It manifests itself in many ways, 
but on three different levels, the rise of traditional rivals 
like China and Russia, the rise of ISIS with their land-based 
caliphate, and then I think the proliferation of potentially 
dangerous rogue nations and nuclear proliferation like North 
Korea and Iran.
    In the midst of all that, you have varying degrees of 
disinformation and propaganda machines out there, well funded 
machines in China and Russia. And then you see not so well 
funded but very effective efforts from ISIS in terms of not 
just fundraising but recruiting. And so in the midst of all 
that, the guys who get the bad deal are the American taxpayer. 
We are the most philanthropic country in the history of the 
world, and yet we get no credit for it. Our ideology is one of 
a colonialist country that is taking advantage of the less 
fortunate.
    I come to that with your challenge, your mission, Mr. 
Lansing. And thank you for taking this job. I hope you have it 
a while. But you talked about the mission or the goal of the 
organization, and I want to talk about the balance between 
integrity and independence about content. Mr. Shell, that is 
your business.
    And I have a second question on media and how we do that, 
but, Mr. Lansing, first, coming into this role, how do you 
balance our objective of trying to get the truth out and still 
have a balance between the integrity of the content but also 
trying to tell the American story? It is the taxpayer that is 
funding this after all.
    Mr. Lansing. Absolutely, Senator. The mission of the VOA, 
as you know very well--part of the mission is to tell America's 
story to the world and to discuss and explain U.S. foreign 
policy. And as far as I am concerned, those are not issues of 
independence in journalism. Those are factual elements of our 
reporting that help explain America to the world and I think 
help debunk the stories that exist in other parts of the world 
about what America is and what our values are in America.
    Senator Perdue. Could I interrupt just a second? Do you 
interact with the State Department and other foreign policy 
originators inside the government?
    Mr. Lansing. One of my board members is Rick Stengel, who 
is the Under Secretary for Public Diplomacy, and we have a 
regular channel of communication with the State Department, 
although I will say to your point on independence--and I have 
been a journalist for many decades. And the reason I am here--
the first question that I asked before accepting the position 
is tell me about the independence of this organization. And I 
learned about the firewall. And I think the firewall is 
critical in delineating brightly the difference between 
propaganda and fact-based professional journalism. And I talk 
about the firewall at every opportunity I get here within our 
organization or anywhere that I am speaking--the importance of 
the firewall--so that our independence is protected because at 
the end of the day if we are not perceived as independent, if 
our content is not perceived to be credible, then we really 
have nothing to offer in expressing America's values to the 
world that can be helpful or cause anything positive to happen 
in my view.
    Senator Perdue. At a very high level, could you help me 
understand how you allocate resources and focus? And I realize 
it is a board decision, but as you come in and looking at this 
new role--let us just characterize it as the Middle East issue, 
ISIS, Iran, Hezbollah, all the other actors there versus 
traditional rivals of China and Russia particularly. And I know 
there are many others. How do you see that demarcation of--
allocation of assets?
    Mr. Lansing. As you know, we broadcast radio and television 
in over 60 languages, and to a large degree, while we spread 
out very broadly, 70 percent of all of our investment goes to 
11 languages, including the 11 most prominent and impactful 
languages, Mandarin, Arabic, Russian, for example.
    And as I look at the resources to be expended and as I 
discussed in my five themes, I think the top issue for 
investment for the BBG is investing in social, mobile, and 
digital platforms. Now, they are not the most used platforms in 
many parts of the world where we have the most difficulty, but 
they are the most used among young, urban influencers who will 
influence the debate going forward much more directly than 
people listening to the short-wave radio or even----
    Senator Perdue. I want to ask Mr. Shell that in a second. 
But I want to ask you this. Is there a correlation between 
geography and language? And the reason I ask, when I lived in 
France, there were a lot of different languages spoken and now 
even more today obviously. So, for example, do we have Arabic 
language content going to parts of Europe, for example?
    Mr. Lansing. We do not but I believe we should. I think as 
I look at the rise of ISIS and what happened in Paris and you 
realize what is happening to a large extent is disaffected 
youth in parts of European cities that are being radicalized 
and sometimes they are coming from Syria, but sometimes they 
are really just coming from parts of Europe where for whatever 
reason they are able to be radicalized.
    Senator Perdue. Scandinavia, U.K., and the Latin countries.
    Mr. Lansing. Yes, I think it is important for us to know.
    Also, again, Senator Perdue, with a digital, social, mobile 
strategy, you are no longer bound by geographic structure or by 
a transmitting tower or a satellite. You really can be 
everywhere by virtue of choosing the right platforms.
    Senator Perdue. Mr. Shell, I am almost out of time, but I 
have been dying to get to you on this question. In your 
business, your day job, you have had to adapt to this evolving 
nature of different media. Can you respond to what Mr. Lansing 
is pointing out here in terms of how do you allocate resources, 
what is the focus, what is the genre of individual you are 
trying to reach, and how do you adapt the media use to that 
goal?
    Mr. Shell. Yes. So I think John said one of the most 
critical parts, which is that radio and television are 
geographically bound and very difficult to reach people, by the 
way, on television because people tune into a platform. You 
cannot just put it up on a satellite and expect people are 
going to watch the show. A lot of our organizations were 
started during the cold war where the only alternative was the 
state radio station. The world has changed dramatically since 
then.
    The good news for us, actually a good thing for us, is that 
mobile allows, as John said, us to break down geographic 
barriers. We can broadcast Arabic speakers all over the world 
through mobile. People can pull out their smartphone and just 
access an application on there to do that. The thing that that 
requires, though, is access. The Internet freedom question that 
was asked earlier becomes a much more critical factor. If you 
cannot access the platform, then it does not matter if the 
content is on the platform. So I think shifting a little bit to 
more of an access, we need more resources for Internet freedom 
because if people cannot get on the Internet, they cannot get 
our content regardless of how good a job we do.
    A question I often get asked is why do you even exist. 
There is CNN. There are lots of other places. I was in China a 
month ago. You cannot get CNN on your iPad or your iPhone. It 
is blocked. So we have to figure out a way both to get the 
content on the right platform and get people access to the 
platform, which is true in my day job and true at the BBG.
    Senator Perdue. I have been in places in my career where 
VOA was the only source of information. Thank you for what you 
are doing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your service.
    You know, this last point in response to Senator Perdue I 
think is an essential point to think about. Part of the reason 
for our broadcasting abroad is that very often we are trying to 
get to citizens who live in closed societies, whether they be a 
totalitarian regime, whether they be a government who 
explicitly seeks to restrict their citizens' access to 
uncensored media content. And there are very many places in the 
world, unfortunately, in which that is a reality.
    So part of what I would like to hear from you is, one, I 
hope that we never view a country that is working to stop our 
success or our efforts as the reason why we should stop 
broadcasting. For example, if in fact you cannot get access to 
the Internet in a given country, it does not mean that we 
should not look at the circumnavigation abilities to ultimately 
achieve that access because the day we do that, then we might 
as well just go out of business in terms of surrogate 
broadcasting.
    So is that a pervasive view at the board, that whatever is 
the society we are trying to ultimately transmit to whatever 
medium, that we are not going to stop simply because it is more 
difficult to penetrate?
    Mr. Weinstein. Thank you, Senator Menendez, and thank you 
for your voice on this issue and for what you have done and 
what you have focused on in the past in this area. I know it is 
a priority for you.
    This is critical to the Internet anticensorship work that 
we do. The key thing is to empower world citizens with modern 
unrestricted communication channels so they can get information 
access and access to information without fear of censorship in 
places that they cannot. And so our Internet anticensorship 
efforts--we have created Internet freedom tools that exist in 
200 languages. Our tools have allowed over 1 trillion 
circumvention pay views over the past year. And so we firmly 
believe, as there is more of a move toward digital, toward 
online, that we are going to continue to operate even in 
countries where our work is most necessary, the enhanced 
firewalls of Iran and China which our Internet anticensorship 
tools have allowed access literally to millions of people and 
more than a billion Internet sessions a day around the globe 
using our tools. So it is important and it is something that is 
critical to our mission.
    Senator Menendez. Well, I am glad to hear that.
    Now, let me ask you. Chairman Royce's legislation, who has 
made it a priority in the House--I am sure you have had the 
chance to review it. I heard, Chairman Shell, your response to 
the chairman about one element of it. As a whole, what would 
you say about the legislation?
    Mr. Shell. So obviously it is a big, complicated piece of 
legislation, and I know Chairman Royce and I appreciate the 
work that he and his committee did and his staffers. They have 
spent a lot of time on it, and we were involved in the process 
and talked to him during that process.
    I would say in general there are two things that I love 
about the bill and two things that I find problematic about the 
bill.
    I think the bill is very, very good on giving the CEO the 
authority the CEO needs and making the board more of a 
traditional board that provides oversight and strategic 
guidance, where the CEO runs the organization. I think the bill 
actually does an excellent job of that.
    And I think some of the consolidation stuff we talked about 
earlier is very well done in that bill.
    I do not, as I mentioned before, like the two boards and 
two CEOs. I think operationally that is going to be very 
difficult.
    And the other thing is I think there is a lot of language 
in the bill that I would say is more operational. There is 
language about hiring freezes and physical location and stuff 
that I personally as a manager of a business think may or may 
not be the right idea but should not be in a piece of 
legislation that is going to live for decades and decades and 
decades or centuries.
    So I think in general there are really good pieces in the 
bill, and I think that hopefully the bill will have some 
changes when you all pass it.
    Senator Menendez. Is that the general consensus?
    Mr. Weinstein. I would agree fully with Jeff on that. I 
have great respect for Chairman Royce and for the staffers who 
have worked on this bill, but I think the challenges that Jeff 
pointed out are important to note, as are the important changes 
and reform that has already been put in place in the board at 
the board level and now we are seeing at the management level.
    Senator Menendez. Now, let me turn to a question. You have 
addressed it to some degree, but I would like to hear and maybe 
from your CEO--you know, the one constant that we can depend 
upon is change. And the reality is when I was in Ukraine at the 
time that the Russians were invading and then traveled to 
Poland after that, I can tell you the leaders of those 
countries felt overwhelmed by Russian propaganda and felt that 
to them it was an arm as powerful as any of the military 
aspects that were crossing in the case of Ukraine over their 
boundaries or in the case of Poland over their airways.
    So what is that you would do differently, structurally or 
otherwise, that would give you the agility to be able to 
respond to the Ukraine of yesterday or the ISIL in Paris of 
today? What is that needs to be done in order to be able to 
have that agility and flexibility in an organization? And as 
part of that--since my time is going to run out, I will just 
give you the question. You can use the rest of the time in 
answering. You have got about a what? A $700 million budget or 
so?
    Mr. Lansing. Yes.
    Senator Menendez. I look at what the Russians are spending 
alone, and I say no matter how well organized, no matter how 
efficient, is it possible to compete in that sphere under those 
terms and circumstances? So we want you to be as efficient as 
possible. We want you to be as organized as most powerfully as 
possible to deliver our content in the way in which we aspire 
to. But by the same token, I also think there has to be a 
little intellectual honesty here about how much is necessary to 
compete if we think that that is a national security strategy.
    Mr. Lansing. Thank you, Senator Menendez.
    I agree we are being outspent greatly in the sphere of 
Russia, in China. But that does not mean we cannot be as 
impactful and efficient as we possibly can be. It goes back to 
the empowered CEO and the BBG operating as five entities and 
not splitting it into the grantees and the Federal entities. As 
the CEO, the one thing I could do is shift resources rapidly 
from areas that are not necessarily hot at the moment to areas 
that are becoming hot and not wait for another fiscal year 
appropriations to do that. But if I had to negotiate with 
another CEO and our board at the Federal side had to negotiate 
with the board on the grantee side in order to shift resources, 
then we end up running a debating society instead of actually 
having impact in the world when it is needed the most.
    I think we can have great impact. In fact, we have added 25 
affiliates to the periphery of Russia with this new program, 
``Current Time,'' that is coproduced, by the way, by the 
Federal entity VOA and the grantee RFE/RL and runs every day 
for a half an hour in the periphery. That was not there a year 
ago. And it is directly countering Russian propaganda every 
day. And our Ambassador Pyatt in Ukraine where I was last week 
said it was a critical tool in the fight against propaganda, as 
well as the Ministry of Information there in Kiev.
    So, yes, we are outgunned in terms of resources, and to be 
intellectually honest, to use your term, it is an issue. But 
the only way, given the restraints on our budget, to have the 
most impact is to have the flexibility to move dollars around 
quickly and punch hard when a punch is needed.
    Senator Menendez. So to recap, the only institutional 
change, forgetting about resources for the moment, is the 
ability for you to move resources within the institution 
without having to negotiate with another element of your 
broadcasting.
    Mr. Lansing. Yes. As it is today, that would be something 
that boards would have to negotiate with one another in order 
to move money from one side of the organization to the other. 
Again, if you envision the 2323 construct of a CEO over the 
Federal side and a CEO over the grantee side, that creates a 
mechanism for dysfunction that I am not clear why anybody would 
organize for dysfunction when you could organize to eliminate 
dysfunction.
    Mr. Shell. Senator Menendez, can I jump in on one thing?
    So the other tool that I think would help John and the rest 
of the organization is probably shifting more of our funds into 
no-year funds, which can be kind of set aside or at least 
designated to make it easier because the fiscal year or the 
year designated funds makes it more mechanically difficult to 
do this too. So one of the things we are asking for is the 
ability to be able to surge, and the organizational issue is 
one issue. The no-year funds is another issue because you just 
do not know what is going to happen tomorrow or the next day.
    And the other thing I would say too is in the private 
sector what is happening in media is mobile and digital are 
making the barriers to entry to launching new media business 
much smaller. We are going to also benefit from that here at 
the BBG because the spending that Russia is doing, China is 
doing, BBC is doing is going to come down dramatically in scale 
versus our scale when mobile and digital becomes more 
prevalent. It is just simply not as expensive to launch things 
and carry things all over the place.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Very good.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all very much for being here this afternoon 
and for your efforts.
    I want to follow up a little bit on what Senator Menendez 
was asking about because a couple of weeks ago we had a hearing 
on Ukraine and on Russian propaganda in Ukraine. And one of the 
things that I think I am correct on is there was testimony just 
about Russia Today, which is the Russian television station 
which having just been in Europe and having had an opportunity 
to watch it, it is very slick and it is on all day. I think 
they are spending about $1.4 billion on that effort. And he 
testified that the State Department was spending $66 million 
for all of our countermessaging and civil society support.
    You were talking about, with Senator Menendez, the $700 
million that encompasses your budget. And I think as you point 
out, you have been very effective in certain areas. As a child 
of the cold war, I grew up when Radio Free Europe and Voice of 
America were very important to our efforts to respond to the 
Soviet Union.
    But the question that I have now is whether what we are 
doing is in any way adequate to the challenge that faces us and 
whether we should be totally rethinking the structure of how we 
counter-message not only with respect to Russia but with 
respect to ISIS and the challenges that we are facing in the 
Middle East where a significant part of their military strategy 
has really been their messaging. And when I asked this question 
at the Armed Services Committee, what I heard was, well, we 
used to work with the State Department--our military--but we 
have been asked to stop doing that. We got rid of the U.S. 
Information Agency back in the late 1990s.
    So my question really is, is what we are doing right now--
do we have the capacity to do what we need to do around the 
world in the future with the kind of structures that we are 
looking at? And so I would ask you to, if you can, put aside 
your hat as a member of the Broadcasting Board of Governors and 
CEO and tell me whether we are doing what we need to do. Do we 
have the capacity with the structures that we have set up to do 
what we need to do in the future?
    Mr. Shell. I would say yes and no, and it is a complicated 
question. Thank you, Senator, for your question.
    I want to hear from John who was just in the Ukraine and 
Ken.
    I think that we have some positives and we have some 
challenges. The positives we have is that American culture is 
pervasive around the world, and so while we do not spend $1.4 
billion on a TV network, everybody is watching that TV network, 
if they are watching it, or probably watching other things, but 
they are on their iPhone that is produced by an American 
company and they are watching. And they are probably on 
Facebook instead of watching Russia Today so they are not doing 
that. So we have a lot of benefits of American culture, CNN 
International, lots of different American networks that 
broadcast across the globe. And so American culture is still 
pervasive and looked up to in a lot of the world. I do not 
actually think we are looked at as colonists by a lot of the 
young people around the world. I think we are looked at still 
aspirationally as this is the kind of life I want to live as 
they see it on TV and in movies and the experience of coming 
here.
    The fact is, however, that we are being dramatically 
outspent, and that does have an impact. It would be 
intellectually dishonest to say that our 30-minute daily show 
in the Ukraine is having as much of an impact as a 24-hour 
network. It is just not possible.
    Senator Shaheen. Right.
    Mr. Shell. So we are doing what we can with the resources. 
We think we are more effective with our resources than that 
$1.4 billion, but certainly if we are going to take it 
seriously as a country, we have to get serious about this and 
probably spend something commensurate with what our enemies 
spend or at least a bigger fraction of it.
    Ken, do you want to jump in?
    Mr. Weinstein. Yes. No, I would disagree with Jeff to the 
extent that I actually am concerned about the image that--and I 
realize your day job at Universal--with the image that American 
entertainment companies project around the world. And Martha 
Bayles, who is an adjunct fellow or visiting fellow at the 
Hudson Institute, has written about this and thought about 
this, that a lot of the images that people are receiving around 
the world that come out of reality television or out of movies 
today are not necessarily the most positive images of the 
United States.
    Senator Shaheen. Amen to that.
    Mr. Shell. Or even the images on C-SPAN.
    Mr. Weinstein. Exactly, those too. [Laughter.]
    So this makes the challenge of--public diplomacy makes a 
challenge of what we are trying to do much more difficult. And 
let us face it. The people in Moscow are sitting there 
creatively making up stories and then making up images, whether 
it be aircraft shot down over Ukraine or elsewhere. They are 
doing this on a full-time basis, and they are using all sorts 
of creative techniques with a lot more money than we are doing 
telling the truth. And the sensationalized stuff will 
oftentimes grab an audience much more.
    So we certainly could use significantly more resources than 
what we are doing. I think given the resources that we have, I 
think we are doing an excellent job.
    Senator Shaheen. One of the things that has struck me as we 
have watched the tens of thousands of refugees who have fled 
from the conflicts in the Middle East is that they are not 
fleeing to Russia and to Iran and to many of our--oh. I am 
sorry. Yes, Mr. Lansing.
    Mr. Lansing. I am sorry. I did not mean to interrupt.
    I just wanted to add a thought as well, and that is if you 
think about the old construct of broadcasting in the cold war 
and it was a transmitter and the Russian message going out to 
everybody and that is still happening. That is RT.
    But there is another thing happening, and I think you have 
to really focus on the audience. And the audience that we think 
is most critical are young, 18- to 24-year-old, mostly urban, 
hip, up-to-speed consumers of media who are not easily fooled, 
who get their media not just from state television, but from 
each other on Facebook, on social media. The most trusted 
source of media for an 18- to 24-year-old is a friend on 
Facebook, not a friend in Moscow.
    So I think that is important because as we shift strategies 
and shift resources towards more investment in social media and 
digital platforms and imagine that our consumer is holding an 
iPhone or any smartphone and that they are savvier than their 
mother and dad are, just like my kids are savvier than I am, 
today and that we can--our strategic approach is to tap into 
the savvy younger media consumer because I guarantee you--and I 
cannot back this up scientifically other than my own anecdotal 
evidence with my own teenage twin sons is that their faith in 
traditional media is nonexistent compared to their faith in 
each other and their friends.
    Senator Shaheen. Well, certainly we heard testimony to that 
effect several weeks ago at that that hearing. If we are going 
to have an impact, we have got to look at how we get into the 
grassroots and get into those young people and those Internet 
Facebook and other messaging, which is much more challenging. 
And we really have not had much of a chance to explore that 
with you all.
    But, Mr. Chairman, I am out of time, but can I ask one more 
question?
    The Chairman. Sure.
    Senator Shaheen. When you are making allocation decisions, 
are those linked to national security priorities in the country 
and how do you determine those?
    Mr. Lansing. We are absolutely linked to the NSC and the 
State Department. We understand the priorities and we make 
resource allocations geographically based on those areas that 
are highlighted and prioritized.
    Senator Shaheen. And do they come with direct communication 
to that effect?
    Mr. Lansing. They do not come with editorial guidance. Back 
to the firewall, it is not cover this or do not cover that. It 
is here are the areas of greatest concern to the United States 
Government, and of course, we have our own ability to 
understand where there is a lacking media freedom or other 
areas that just require the investment of resources. They line 
up pretty easily.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to the witnesses for great testimony.
    I am interested in your anti-radicalization messaging in 
the Middle East. You have a Middle East Broadcasting Network, 
and I understand you have a ``Raise Your Voice'' campaign to 
try to counter--well, in extremism, you may even have a short 
clip here that you have brought with you. I just would like you 
to tell me about that effort and kind of how long you have been 
doing it and what you are seeing in terms of its success.
    Mr. Lansing. Sure. Thank you, Senator Kaine.
    The campaign is ``Raise Your Voice.'' It is both a social 
media campaign, radio, Internet, and television, including 
weekly documentaries that highlight the plight of families who 
lose jihadists and the family is left without the jihadist 
behind and you see the impact on the family. And we do have a 
clip if you would like to see it.
    But the amazing amount of Facebook likes, followers, shared 
Facebook messages that have gone on through this program over 
the last few, I guess, couple of months now has really been 
heartening to us. There is a moderate voice in Iraq that is 
being raised--i.e., ``Raise Your Voice''--that otherwise was 
not being heard. And we are surprised to the extent that we 
have tapped into that moderate fever.
    Senator Kaine. I would love to use some of my time to see 
the clip.
    Mr. Lansing. Sure. It is a minute and a half.
    Senator Kaine. Mr. Chair, is that----
    The Chairman. That will give you 4 minutes.
    Mr. Lansing. It is really quick clip. It is about a 30-
second clip. This is a clip of a mother who woke up one day to 
find her son had left to join Daesh.
    [Video.]
    Mr. Lansing. We made it short because we were going to try 
to work into our testimony, but we can bring the whole half 
hour, if you would like.
    It is the part you do not see. You hear about the heroic, 
off to join ISIS. What you do not see is what is left in the 
wake behind. And then, by the way, her son was--their family 
got a call over his cellphone from a stranger that said your 
son is now a martyr. Thank you. And that was her reaction to 
it.
    Senator Kaine. Tell us how you distribute material like 
this, you know, to I guess how many broadcasting networks help 
you. But also talk a little bit about the social media 
distribution.
    Mr. Lansing. Yes. So we have the Alhurra television network 
and the Radio Sawa across--actually penetration throughout 
Iraq, 40 percent, I believe, reach in Iraq meaning people have 
seen it at least once a week, the network itself. The social 
media aspect has expanded dramatically as I mentioned earlier.
    And it touches back to the notion, Senator Shaheen, that I 
was mentioning earlier, that we have tapped into not only a 
moderate force but a younger demographic that social media is 
not their secondary like it is for me, but it is their primary 
means of communicating. And what happened is it has an 
exponential effect. So somebody sees the program. They post it 
on Facebook. It gets shared. It gets liked, and then others 
share it. So it has a way of distributing itself versus the 
traditional TV tower and radio tower. And so we are tapping 
into a moderate, young audience with a message about jihadism 
that contradicts everything that is being heard through 
propaganda.
    Senator Kaine. In the Middle East Broadcasting Network, you 
talk about the penetration in Iraq. Talk to me about 
penetration in other countries of the region other than Iraq.
    Mr. Lansing. So it spreads from Morocco all the way across 
to Iraq. The majority of the listening/viewing is in Iraq where 
it is significant. But I cannot quote the actual percentages in 
the other countries, but across the northern tier of the Middle 
East, it is significant.
    Senator Kaine. This is a question that might be out of your 
lane, but I am kind of curious about it. There has been some 
speculation that the attack in Paris--I have heard it stated 
that ISIL was absorbing some defeats on the battlefield and 
knew that that would be messaged in a way that would hurt them, 
and so that they may--while these attacks were coordinated, 
they may have even rushed them to try to take the sting out of 
some bad messaging about battlefield challenges. Is that 
something that you know about? If that were the case, it would 
really speak to the critical importance of what you do, 
obviously, that winning the war is one thing, but if you are 
going to lose a big chunk of the war on the battlefield space, 
then win the narrative, the messaging war if you can.
    If you do not know anything about that speculation--and it 
would only be speculation--I guess I would just offer it as a 
comment. Even the speculation suggests the critical importance 
of what you do. It looks like, Mr. Weinstein, you may want to 
say something.
    Mr. Weinstein. Senator, I would say this. The attack in 
Paris, from what it looks like, would have in all likelihood 
occurred at some point. Whether it was sped up or not is a 
different story. There is no doubt that Daesh uses images of 
violence, whether it be beheadings, otherwise, to present a 
very masculinized vision of what jihad is in order to entice 
the young men in the demographic we are talking about to 
essentially be a man, to stand up, and to fight, to engage in 
jihad in this way. And these images are absolutely critical to 
what they are doing. So they are absolutely essential to what 
ISIL has been up to.
    Senator Kaine. And then just to pick up on comments from my 
colleagues who were asking more about on the Russia side, I 
know that you have got a program that you broadcast in the 
Russian periphery, this ``Current Time'' program. How long have 
you been doing that? And again, is there a traditional media 
and a social media component? Talk a little bit about that.
    Mr. Shell. We have ``Current Time'' up ever since Russia 
invaded Crimea. So the BBG did some very quick work in that. We 
are very proud of what we did there. We were up 48 hours 
after--in Russian language after that happened, and we have 
expanded it, as John said, to a number of the different 
periphery territories since then in the Baltics and throughout 
the region. So it is a 30-minute show and it is highly watched 
and shared across the media not just in the affiliates that 
carry it but on the social networks as well.
    Senator Kaine. I hear nine countries, 25 affiliates, but 
also through a pretty aggressive digital and social media 
distribution.
    Mr. Lansing. Yes. In fact, the digital manifestation of 
that has grown remarkably fast, and we are expanding into 
Central Asia now as well with ``Current Time Central Asia.''
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I am just going to ask a couple questions. I know we have 
another panel and I know people have other pieces of business.
    First of all, to have people like you, two board members 
and a very successful CEO, at BBG carries a whole lot of weight 
with me and your opinions carry a tremendous amount of weight. 
There is this issue, though--I think it is an issue of 
contention, and that is the grantees and their relationship to 
you. And I know the next panel is going to speak to this. I 
just want you to speak more clearly, if you will.
    I guess there is some question about whether these grantees 
have credibility if they are, in essence, arms of the Federal 
Government. I mean, is there an independence issue? Is there 
something else you might share with us before we have this next 
panel? From the standpoint of reforms--and I am glad we had the 
opportunity to hear what you were doing in other places, but 
there is a piece of legislation that I think you want to see 
happen in the right way. If you all could just expand a little 
bit on that before we move to this next panel.
    Mr. Lansing. Sure, Senator Corker. I will start with that.
    I think about a media conglomerate much the same way I 
would have thought about Scripps Networks where I was before, 
six cable networks, food network, travel channel, HGTV. In some 
cases, a network--travel channel is a good example. Scripps did 
not own 100 percent of it. It owned 60 percent of it. So it had 
a different financial model. It had a different place on the 
balance sheet, et cetera. But strategically, we had control of 
the asset and we managed it strategically.
    I would make the same comparison with the grantees versus 
the Federal Government. First of all, I do not see any issue 
with independence. We are operating with a firewall, and 
independence is a given whether it is a Federal entity or a 
grantee. So I would set that over here. And if there were an 
issue with independence, we should be having a hearing about 
that honestly because I think independence is really not the 
issue.
    The issue to me as a media manager for years--and I would 
love to hear Jeff weigh in, but with media you always start 
with the audience and work your way backward. You start with 
what do you want to have happen. You have an audience. You have 
an age of an audience. You have a place for an audience that 
you want to bring content to and then have something happen 
which is impact. You would organize in such a way, in my view, 
that you would have the greatest amount of impact and the 
greatest amount of efficiency and the greatest amount of 
flexibility so that you could surge particularly with the 
mission, the critical mission, which dwarfs anything in the 
cable world of the BBG.
    So unless there is a credible argument for why you would 
make a functional media structure with one CEO and one board 
like any other media organization in the world is organized, 
why you would say, well, when the Federal Government runs the 
media organization, they run it with two CEOs and two boards 
because they are funded differently. And I would just submit, 
Senator Corker, that the funding is not the issue. The 
independence is not the issue. The issue is the effectiveness 
of U.S. international media and how you manage that 
effectiveness and how you would organize to do that. I am not 
a--I know you are not either--from years in the government, you 
were a successful developer in Chattanooga. To me, I take a 
business approach, and that is the way I would organize it from 
a business perspective.
    Mr. Shell. I would add to what John said. We all kind of 
are up here as businessmen or former businessmen looking at 
this as a business challenge of how do we compete with other 
businesses across the world. And what I would say is what I 
have noticed at the BBG is there a lot of things that are based 
on historical kind of structures that are no longer as relevant 
in the world that we operate in. So the grantees, as they are 
called, are largely surrogate broadcasters in that their 
mission was to provide local media in places that did not have 
local media.
    And the reality of things is two things have happened since 
that got set up. One we have talked about ad nauseam today. 
Geographical boundaries are less and less relevant across the 
globe where you have people getting messaging from all over the 
place particularly amongst our audience that is younger. And 
then I think the other impact is digital versus traditional 
forms of media which know no boundaries and know no 
technological boundaries.
    And so I think that these surrogates were set up as private 
entities because it was faster. That was the justification. You 
could just provide funding to an organization and then let it 
go. And I think that was a smart thing to do. But to completely 
separate them out, as John said, I do not even actually see any 
benefit to what we are trying to accomplish long-term.
    The Chairman. If they have covered it, that will do, but if 
you want to add to it.
    Mr. Weinstein. And I would just say look at what we have 
achieved in the last year. Look at the synchronization. Look at 
``Current Time,'' the success that it is having. Look at the 
reporting out of the Maidan, the work together of RFE and VOA. 
It helps having a single structure, and it has made things 
easier to produce. I think over time it will lead to cost 
efficiencies that will prove to be significant at a highly 
competitive time in the international media space. And I think 
that a lot more could be achieved if the right kind of reform 
gets through.
    The Chairman. We thank you for being here. Look, we have 
all heard a lot of horror stories about BBG. I know all of us 
have. And at the same time, we all know the importance of the 
mission. We know that the three of you have come in and really 
professionalized the organization. Sometimes legislation has a 
little bit of a lag time and sometimes it is responding to 
other points in time in history.
    But your testimony today has been excellent. We thank you 
for your service to our country. We are glad you have someone 
who understands the media business and have given him the job--
or at least, I am glad--and you have given him the job as CEO. 
And we look forward to working with you productively on 
legislation to try to capture some of the good things that have 
occurred but also help the organization move along. So thank 
you so much. We appreciate it. Thank you.
    And with that, we want to thank the witnesses who have just 
been here. We are moving to the second panel.
    Our first witness on the second panel is the Honorable S. 
Enders Wimbush, who is public policy fellow at the Wilson 
Center and formerly a BBG board member and director of Radio 
Liberty.
    Our second witness is Mr. Kevin Klose, who is currently 
professor at the University of Maryland's Philip Merrill 
College of Journalism, formerly president of Radio Free Europe, 
Radio Liberty, and president of NPR.
    We appreciate also having two witnesses with such 
distinguished backgrounds here. I know there may be some 
differing opinions that are offered here.
    We thank you for your testimony. If you would give it in 
about 5 minutes each, we look forward to questions. And again, 
thank you for your service to our country.

  STATEMENT OF HON. S. ENDERS WIMBUSH, PUBLIC POLICY FELLOW, 
 WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS, WASHINGTON, 
                               DC

    Mr. Wimbush. Chairman Corker, Ranking Member Cardin, 
members of the committee, I am honored to have this opportunity 
to speak candidly to you about challenges to and opportunities 
for U.S. international broadcasting, and as a preface to my 
remarks, I want to note that in July 2014, former BBG Governor 
Dennis Mulhaupt and I wrote a long critical article on the need 
for radical BBG reform. When I spoke to Dennis this morning, we 
both agreed that there was nothing in the piece that we wrote 
that we would change today.
    I would like to recommend in my short remarks--I would like 
to address in my short remarks three key issues: first, the 
media environment; second, the BBG's structures of governance 
and problems; and third, the proposed legislation.
    There are several facts that we need to be clear about.
    Fact one, in contrast to the period of the cold war, few 
countries such as North Korea exist in which governments 
control and approve all information. To the contrary, a casual 
drive across any continent reveals a sustained explosion of 
information sources available to most populations including to 
the populations of our adversaries and those whom we seek to 
influence.
    Fact two has already been noted. Our adversaries have 
raised the quality of their media game significantly. For the 
most part, gone are the big lies. In are the actors' nuanced 
explanations for why they behaved as they have and why it was 
necessary. And this is important. They do not control all the 
facts, which in any case are often easily contradicted in a 
world awash in information. Rather, they try to control the 
information that matters to them, and in most cases, this is 
information coming from local media. And this will speak 
directly to the value of the surrogate broadcasters as I go 
forward. With less and less control over visible facts, our 
adversaries spend more and more time controlling the context in 
which those facts have meaning to the people they are trying to 
communicate to.
    So to me, this means that the appropriate niche in this 
media landscape for U.S. international broadcasting should be 
to provide deep, well resourced, and factually accurate 
context. The America piece should be a central focus of this 
context. In particular, audiences want to know how our policy 
is made, how the policy process reflects our world view, and 
the different opinions comprised within it.
    If U.S. broadcasting has any single reason to exist, it 
should be to seize the strategic narrative about ourselves. An 
expert in the Middle East told me recently--and I quote him--
``tell our story. We are not going to stop people from hating 
America if they choose to hate it, but let them hate what 
exists, not some figment of their imagination.''
    The Voice of America charter makes the America story the 
Voice of America's responsibility. This is not to say that the 
Voice of America speaks for the United States Government. 
Indeed, it does not speak directly for the government, but it 
should have a point of view that reflects our values. And this 
point of view is, in my view, its essential essence.
    A word about the Broadcasting Board of Governors where I 
served. In my view it was poorly conceived in the beginning, 
and not surprisingly it has performed poorly. Frequent and 
ongoing evaluations are unremittingly negative and critical. In 
the longer remarks that I submitted for the record, I cite a 
lot of these. But the criticisms invariably fall into three 
categories: dysfunction, lack of oversight, and absence of 
strategy. And this should not surprise us because the BBG is 
charged with reconciling two incompatible governance 
structures, one Federal and one private.
    I was reflecting on CEO Lansing's remarks that trying to 
work with two boards would be like having a baseball team with 
two coaches. In fact, he has got it exactly backwards. That 
would be right if U.S. international broadcasting were a single 
organization. The problem is it is not a single organization, 
so you have precisely the opposite problem. You have two 
organizations with one coach trying to coach two different 
organizations that sit in different leagues entirely.
    We currently await a new report of possible financial and 
oversight malfeasance at RFE/RL in Prague occurring from at 
least 2013 to present, which has gained the attention of the 
OIG, the FBI, and possibly other Federal authorities.
    The BBG wildly duplicates capabilities across the five 
networks at great expense to the taxpayers and to little 
effect. By my count, of the 61 language services hosted by the 
five BBG networks, of the 61, 22 are duplicated. That is more 
than one-third. In practical terms, this means that U.S. 
international broadcasting has two separate broadcast services 
for Albanian, Azerbaijani, Dari, Pashto, Armenian, Bosnian, 
Georgian, Persian, Macedonian, Russian, Serbian, Ukrainian, 
Uzbek, Burmese, Cantonese, Khmer, Korean, Lao, Mandarin, 
Tibetan, Vietnamese, and Spanish--two of each. Duplicating 
services and operational support systems costs lots of money 
and it severely limits the ability of U.S. international 
broadcasting to fund new languages where it would benefit our 
pursuit of foreign policy.
    And there is no coordination amongst the duplicates. No 
one--and I mean literally no one--really knows what these 
services are duplicating, where they contradict one another or 
U.S. policy, and where their efforts might be made to converge 
to create something larger than the sum of their parts.
    The BBG board has also failed to deal with chronic 
leadership issues. The CEO proposition came on the board that I 
served on, and we put it out first in late 2010 or early 2011. 
But it took a full 5 years for the board to appoint a true CEO, 
and he left in 42 days. The new CEO has been appointed, but it 
is unclear, as has been commented on here frequently, that he 
has the support necessary to make the tough decisions.
    The leadership deficit affects every level of international 
broadcasting. Kevin Klose sitting here on my left was the last 
full-fledged president of Radio Free Europe/Radio Liberty. He 
left 19 months ago on the 1st of March 2014, leaving that vital 
network now in probably the most challenging environment since 
the end of the cold war under the control of--and I quote--
``two acting interim comanagers, one located in Washington, who 
has since departed.'' Radio Free Europe/Radio Liberty still has 
no permanent president even as its broadcast milieu churns. The 
Voice of America has had no director for nearly 8 months.
    The BBG is notoriously allergic to strategy, which is 
another way of saying that it is mostly unhinged from the 
process and practice of U.S. foreign policy for which it was 
intended. We can talk in great detail about that later if you 
would like.
    But I would like to address the discussion on Ukraine 
particularly. It posed a very difficult test for the BBG. Its 
response to Ukraine was neither robust nor nimble nor quick 
despite an influx of new taxpayer funds for that purpose. 
Nearly a year and a half after Russia invaded Crimea, touching 
off today's crisis, the BBG, as you have heard, was able to 
produce a single half-hour news program for placement on local 
networks around central Europe. I understand that that is 
increasing and the quality is generally good, which is the good 
message. But this was clearly a feeble response.
    Finally, a few words on the proposed reform legislation, 
H.R. 2323 from the House side. I am a strong proponent of this 
legislation for four reasons.
    First, because it fixes the Voice of America as America's 
voice. The America piece, so vital to our strategic narrative 
and for making our values, visions, and policies understood 
around the globe, will no longer be ignored or discounted.
    Second, the surrogate networks, Radio Free Europe, Radio 
Liberty, Radio Free Asia, the Middle East Broadcast Networks 
will benefit hugely from being consolidated into a single 
management structure with its own private and dedicated board, 
which means liberated from the current BBG's often 
dysfunctional and incompatible structure. This independence is 
essential for the surrogates to meet the new challenges 
squarely and expertly and at low cost with high impact.
    Third, creating what amounts to two companies from five 
should engender millions in savings and asset sharing while 
encouraging more mission-centric strategic focus.
    And finally, both of the proposed new oversight structures 
will be more specialized and defined, closer to the audiences 
they seek to influence, and management will be more accountable 
to them. Board members possessing expert knowledge of our 
broadcast regions, especially with respect to the vital 
consolidated grantee network, should promote a much closer 
connection between U.S. international broadcasting and our 
foreign policy objectives.
    Thank you, Mr. Chairman and the committee, for your 
attention.
    [The prepared statement of Mr. Wimbush follows:]

                Prepared Statement of S. Enders Wimbush

    Chairman Corker, Ranking Member Cardin and members of this 
committee, I am honored to have this opportunity to speak candidly to 
you about the challenges to and opportunities for U.S. international 
broadcasting, issues with which I have been intimately involved for my 
entire professional life. My name is Enders Wimbush, and I have been 
associated with U.S. international broadcasting for more than 40 years. 
As a graduate student, I consumed the research products of U.S. 
international broadcasting's different networks. In the 1980s, I had 
the privilege of advising then Radio Free Europe/Radio Liberty 
president James Buckley on strategies for broadcasting to Eastern 
Europe and the Soviet Union. In 1987, I became Director of Radio 
Liberty, and I held that post during tumultuous years featuring the 
fall of the Berlin Wall and the collapse of the U.S.S.R. In 2010, I was 
nominated to the Broadcasting Board of Governors (BBG), where I served 
for 2 years. I believe that I am the only BBG governor ever to have 
actually directed the operations of a U.S. international broadcasting 
network.
    I recount this brief biography to demonstrate that my perspective 
on the issues before you is long, detailed, and steeped in both U.S. 
international broadcasting's operational details, in its history of 
successes and failures, and in strategies for connecting U.S. 
international broadcasting to the objectives of American foreign 
policy. In my short remarks today, I wish to focus on three key issues. 
First, I will address the new media environment and the challenges to 
U.S. international broadcasting today. Second, I will discuss as 
briefly as possible the reasons the BBG cannot meet these challenges 
adequately, although this subject warrants a very long discussion. And 
third, I will address the proposed H.R. 2323 legislation before you, 
attempting to link its provisions to these other issues.
    First, today's media environment.
    Two facts are critical for understanding the shape and dynamics of 
this environment, while revealing the challenge to U.S. international 
broadcasting in finding a niche within it. The first fact should be 
self-evident. In contrast to the period of the cold war in which our 
adversaries for the most part successfully monopolized sources of 
information available to their populations, no such monopolization is 
possible today, except in a very few places. Very few countries such as 
North Korea exist in which governments control and approve all the 
information. To the contrary, a casual drive across Central Asia, 
Russia, the Middle East, Africa, and most of Asia reveals a sustained 
explosion of information sources available to these populations. 
Apartment balconies in cities routinely boast one satellite dish and 
often as many as three. Rural communities, likewise, are similarly 
empowered most places, and I have even seen satellite dishes on 
shepherds' huts in parts of the Middle East and in the Caucasus. It is 
no exaggeration to suggest that these people routinely receive several 
hundred channels of something.
    The second fact is that our adversaries in have raised the quality 
of their media game significantly. For the most part, gone are the big 
lies; in are nuanced explanations for why these actors have behaved as 
they have. Sometimes these actors attempt the big lie, but these 
usually fail precisely because so many other sources of information are 
available to contradict them. Instead, they try to control the 
information that matters to them; that is, less control over the 
visible facts, and more over the context. They seek to explain, to 
obfuscate, through filters of their own interests why these facts are 
important, what they mean in the context their own interests, how they 
contribute to historical justifications for particular actions, and why 
they are consistent with their identities, what they seek to achieve, 
and their visions of the future. Networks like Russia Today (RT), 
China's CCTV, and the Middle East's Al Jazeera have large followings, 
including increasingly in the United States where all broadcast. Their 
power is not that they can claim different sets of facts, but in their 
interpretation of facts in evidence. In a word, context. And their 
strategies for adjusting the context to resonate with different 
audiences shows growing sophistication. The New York Times claims to 
purvey ``all the news that's fit to print,'' and Fox News bills itself 
as ``fair and balanced.'' RT, CCTV, and Al Jazeera, among others, make 
similar claims for themselves, and many people believe them.
    If most of the world is awash in information, and the competition 
is less over facts than over context, then the appropriate niche in 
this media landscape for U.S. international broadcasting should be to 
provide deep, well resourced, and factually accurate context. The 
``America'' piece should be central to this context. Foreign audiences 
crave to know how Americans think about things, and the spectrum of 
different opinions that inform our worldview. In particular, they want 
to know how our policy is made, and how the policy process reflects our 
worldview and the different opinions comprised within it. And they seek 
to understand the impact of our values on our policies and our visions. 
They want to know who we are, what we believe, and how we are likely to 
behave, even when they dislike us.
    If U.S. international broadcasting has only one reason to exist it 
should be to seize the strategic narrative about ourselves: to convey 
an unvarnished version of who Americans are, what we believe and why, 
and what we hope to accomplish with our policies. This task properly 
falls to the Voice of America. As an expert on the Middle East told me 
recently: ``Tell our story! . . . We are not going to stop people from 
hating America if they choose to hate it, but let them hate what 
exists, not some figment of their imagination.'' If you wish to know 
about America, U.S. international broadcasting should be your first 
stop. This is fundamental, because our adversaries' propaganda centers 
on distorting America's story in ways that serve their interests.
    The Voice of America Charter is explicit on this point. The 
network's product must be ``a consistently reliable and authoritative 
source of news . . . objective, accurate, and comprehensive.'' But it 
must also ``represent America'' by presenting ``a balanced and 
comprehensive projection of significant American thought and 
institutions,'' while articulating its policies ``clearly and 
effectively,'' as well as ``responsible discussions and opinions on 
these policies.'' This is not to say that the VOA speaks for the U.S. 
Government. Indeed, it does not. But it should have a point of view 
that reflects our values. And this point of view is, or should be, its 
vital essence.
    Some thoughts on the Broadcasting Board of Governors. In my view, 
the BBG was poorly conceived in the beginning, and, not surprisingly, 
it has performed poorly. One need not take my word for it; the frequent 
and on-going evaluations, Office of Inspector General (OIG) reports, 
independent audits, and informed analyses are unremittingly negative 
and critical. Criticisms fall into several categories:

  <bullet> Dysfunction. This is well known and well documented in a 
        host of reports from the OIG. A comprehensive report of January 
        2013, for example, highlights problems in individual board 
        member conduct, nepotism, backsliding on strategy, ethics, and 
        travel expenses, among other things. (https://oig.state.gov/
        system/files/203193.pdf)
      Lack of oversight. A June 2015 report from the OIG cites Radio 
        Free Asia for dodgy expenditures, possible conflicts of 
        interest and other matters. (https://oig.state.gov/system/
        files/aud-fm-ib-15-24.pdf) The BBG is criticized for lacking 
        ``a well-defined structure to monitor grantee activities.'' A 
        November 2014 independent audit identifies BBG's weak ``control 
        environment'' that has led to its inability to effectively 
        monitor its grantees. (https://oig.state.gov/system/files/aud-
        fm-ib-15-10.pdf)
  <bullet> Lack of strategy. A July 2015 OIG inspection of VOA and RFE/
        RL operations in Kabul noted that ``specific strategies for 
        harmonizing the operations in Afghanistan have lingered for 10 
        years without specific implementation actions.'' (https://
        oig.state.gov/system/files/isp-ib-15-32.pdf) A September 2013 
        inspection of BBG operations in Moscow called for ``a 
        comprehensive strategy for U.S. international broadcasting to 
        Russia that includes all Broadcasting Board of Governors 
        entities operating in or broadcasting to Russia.'' (https://
        oig.state.gov/system/files/217908.pdf)

    A current ongoing investigation of possible financial and oversight 
malfeasance at RFE/RL in Prague, occurring from at least 2013 to the 
present, which has gained the attention of the OIG, the FBI, and 
possibly other federal authorities, is probably a low-point in BBG 
oversight, given that the BBG board knew of the problem at least a year 
before it acted, and then only weakly. This is a pretty miserable 
record for such a small agency, which also consistently receives one of 
the worst rankings in surveys of federal employees' satisfaction with 
their place of work.
    The BBG suffers from serious structural deficiencies, many 
inherited from earlier times but still unaddressed, an unremarkable 
observation that the BBG apparently recognized in its own ``Strategic 
Plan,'' recently posted on its Web site, almost certainly in response 
to the proposed legislation. The BBG wildly duplicates capabilities 
across the five networks at great expense to the taxpayer and to little 
effect. By my count, of the 61 language services hosted by the five BBG 
networks 22 are duplicated--that is, more than one-third. In practical 
terms, this means that U.S. international broadcasting has two separate 
broadcast services in Albanian, Azerbaijani, Dari, Pashto, Armenian, 
Bosnian, Georgian, Persian, Macedonian, Russian, Serbian, Ukrainian, 
Uzbek, Burmese, Cantonese, Khmer, Korean, Lao, Mandarin, Tibetan, 
Vietnamese, and Spanish.
    So many duplicate services spread across different networks creates 
a number of problems. Duplicating services and operational support 
systems costs lots of money, and it also has severe negative 
implications for mission effectiveness and oversight. Taxpayers deserve 
better stewardship of their money.
    Next, the strategic problem. Funding duplication severely limits 
the ability of U.S. international broadcasting to fund new languages 
when it would benefit our foreign policy, or to double down on critical 
languages that might help us shape a rapidly changing environment. 
Spreading these surrogate broadcasters out across multiple network 
structures dilutes both their impact and any effort to develop a 
strategic critical mass.
    Third, the operational problem. No one--and I mean literally no 
one--really knows how these services are duplicating, where they 
contradict one another (or U.S. policy), and where their efforts might 
be made to converge to create something larger than the sum of their 
parts. Efforts over many years--indeed, over several decades--to force 
a modicum of common purpose between the duplicates at VOA, RFE/RL, and 
Radio Free Asia have been described by different BBGs as 
``complementary,'' ``cooperation,'' ``harmonization,'' or--the most 
innovative effort to justify this waste as something useful--
``parallax.'' ``Parallax'' is described by one of my colleagues as 
choosing to own two leaking barns over one solid structure.
    The BBG board has also failed to deal with chronic leadership 
issues. When the board I served on took office in 2010, we almost 
immediately voted to install a CEO to deal with issues that cross 
network boundaries. It took 5 full years for the board to appoint a 
true CEO, and he left after 42 days. A new CEO has now been appointed--
and I wish him well--but it is unclear if he has the authority or 
support to make the tough decisions required to force asset sharing 
across networks, end duplication, replace poor leaders and hire new 
ones, create the processes to allow programming to respond rapidly to 
changing conditions in the broadcast environment, or harness the most 
effective technologies to the task.
    The leadership issue goes top to bottom in U.S. international 
broadcasting. Kevin Klose, sitting next to me, was the last full-
fledged president of RFE/RL. He left 19 months ago, on March 1, 2014, 
leaving that vital network--now in probably the most challenging 
environment since the end of the cold war--under the control of two 
``acting interim comanagers''--one located in Washington, who has since 
departed. RFE/RL still has no permanent president, even as its 
broadcast milieu churns. The VOA has had no director for nearly 8 
months. The management of the BBG itself, lacking a CEO or any other 
credible arrangement, was handed to the joint leadership of three 
executives, two of whom could be described as junior. The leadership 
problem is epidemic.
    Most concerning, the BBG is allergic to strategy, which is another 
way of saying that it is mostly unhinged from the processes and 
practice of U.S. foreign policy for which it was intended. This is the 
case because BBG's governance is weak. The board on which I served 
advanced a strong and comprehensive reform plan within weeks of taking 
office, most of whose key elements are now included in H.R. 2323. Our 
plan was voted into effect unanimously by that board. Then it was 
almost immediately sabotaged by two members of the board who adopted 
opposing agendas. In the end, virtually none of it was implemented. The 
debate over most of its elements continues with the current board, 
which is no closer than we were to bringing real change to U.S. 
international broadcasting.
    Ukraine posed a particularly tough test for the BBG. The BBG's 
response to Ukraine has been neither robust nor quick, despite an 
influx of new taxpayer funds for the purpose. Nearly a year and a half 
after Russia invaded the Crimea thereby touching off today's crisis in 
Ukraine, the BBG was able to produce a single half-hour of new daily 
programming for placement on local networks in Central Europe, and then 
only by mostly working around the existing capabilities in the two 
Russian broadcast services in RFE/RL and the VOA and with an infusion 
of an additional million dollars from the State Department. Is the BBG 
telling us this is the best we can do? Clearly it is a feeble response. 
I am told that the quality of the product is quite good, though it 
often airs late at night on local networks, and that new programs are 
now being added. But the BBG's response to Ukraine leaves much to be 
desired.
    Strategy at the BBG tends to be driven by the budget. For example, 
every year I spent on the board I had to defend the tiny expenditure 
for Tatar-Bashkir broadcasts. The cost of Tatar-Bashir broadcasts is 
not much more than a rounding error in the overall BBG budget, but this 
is exactly what makes it vulnerable to cutting when budgets get tight 
and economies are necessary. The Tatar-Bashkir regions of Russia sit at 
the epicenter of its historic Islamic populations, which are in danger 
of radicalization like other parts of the Islamic world. When Russia's 
spiral of instability accelerates, as it will, America will eventually 
wish to communicate to Tatars and Bashkirs as a strategic imperative. 
The same fate nearly claimed the North Caucasus service, which 
broadcasts to an area of growing radicalization, for the same reason. 
Meanwhile, the VOA's impressive English language broadcasts have 
repeatedly faced severe cuts or elimination, despite being a principal 
language of young elites around the globe. The budget should not drive 
these important strategic decisions.
    It is worrisome that any discussion of strategy nearly always 
defaults to questions of technology, the operative question being: 
Which technologies allow us to deliver our broadcasts effectively to 
our audiences? This is easy, because one can bring in experts from 
Silicon Valley and elsewhere to discuss new social media and digital 
communications more generally without really having to get into the 
weeds about what it is strategically we seek to accomplish or local 
limitations to particular technologies. Technology should be part of 
strategy, but it is not strategy by itself. Largely absent are serious 
discussions by experts about content, audience, and impact: What should 
we be broadcasting, to whom, and to what end? What audiences do we seek 
to influence? How should we measure impact? Do numbers matter? And how 
does all of this contribute to advancing our foreign policy objectives? 
These are difficult issues for any BBG, whose members often lack strong 
foreign policy experience and dynamics in the broadcast environment. 
Almost none have had much experience with international broadcasting of 
this kind.
    Adding a new CEO to this mix--and investing him or her with 
authority to determine ``strategy''--will not begin to answer this 
problem. Strategy is a key responsibility of the board, not the CEO. 
Yet we have already been alerted that the BBG's new CEO will address a 
meeting of the U.S. Advisory Commission on Public Diplomacy on December 
2 to discuss ``The BBG's New Strategic Direction.'' What is this new 
strategy and how was it arrived at? This seems somewhat premature for 
someone holding this post for a only few weeks.
    Finally, a few words on the proposed H.R. 2323. Former BBG Governor 
Dennis Mulhaupt and I, in July of last year, addressed the state of 
U.S. international broadcasting and the need to reform it radically. 
Little has changed since then in either its condition or the urgency to 
reform it. (http://www.weeklystandard.com/blogs/fixing-us-
international-broadcasting-last--796034.html?page=2)
    I am a strong proponent of this legislation. It needs a few 
adjustments, in my view, that will make it even stronger and more 
effective. In my discussions with 
the SFRC staff, I know they are aware of most of my concerns and those 
of my colleagues who also support reform. But I urge the committee to 
move rapidly on this legislation, and to be bold. The reform that 
created the BBG and the current structure failed early and, I would 
argue, quite spectacularly. This should not be repeated.
    The proposed legislation accomplishes a number of essential things, 
as:
    First, it ``reaffirms the important safeguards enshrined in the VOA 
charter,'' but insists that the VOA serve as America's voice. The 
``America piece,'' so vital to our strategic narrative and for making 
our values, visions, and policies understood around the globe, will no 
longer be discounted or ignored.
    Second, the surrogate networks--Radio Free Europe/Radio Liberty, 
Radio Free Asia, the Middle East Broadcast Networks, and, one hopes, 
the Office of Cuban Broadcasting--will enjoy priority and urgency in 
implementing a historic mission that requires comprehensive strategy to 
support America's interests in a vastly more complex political 
environment. They will benefit specifically from being liberated from 
the BBG structure and the provision of their own private and dedicated 
board. This independence is essential for the surrogates to meet new 
challenges squarely and expertly.
    Third, creating what amounts to two companies from five should 
engender significant savings and asset sharing, while encouraging more 
mission-centric strategic focus.
    Fourth, the proposed oversight structures will be more specialized 
and defined, closer to the audiences they seek to influence, and 
management will be more accountable to them. Board members with expert 
knowledge of our broadcast regions--especially with respect to the 
proposed Consolidated Grantees--should promote a much closer connection 
between U.S. international broadcasting and our foreign policy 
objectives.

    The Chairman. Thank you for the fulsome testimony. If we 
could hold it to about 5 on the opening, I have got a hard stop 
at 4:29, and I know each of us want to ask questions. So thank 
you so much for your testimony. Yes, sir.

STATEMENT OF KEVIN KLOSE, PROFESSOR, PHILIP MERRILL COLLEGE OF 
      JOURNALISM, UNIVERSITY OF MARYLAND, COLLEGE PARK, MD

    Mr. Klose. Mr. Chairman, thank you very much for convening 
this important discussion. Senator Cardin and other members of 
the committee, I would like to just, first of all, thank you so 
much for doing this and for bringing us together. I want to say 
that very few issues that have generally come before the 
Congress have done so at such a serious time for international 
broadcasting, and your attention and your concern is very 
justified.
    I would like to say, for reasons I will cite today, that 
H.R. 2323 is an important step in the right direction for not 
only consolidating U.S. international broadcasting but actually 
streamlining it. I support the bill's major provisions, and I 
would have only a few minor corrections and changes that I 
would propose at another time.
    H.R. 2323's core concept of two boards independent of each 
other actually reflects a decades-long evolution towards 
assuring the highest professional standards and principles of 
journalism for U.S. international media by describing and 
maintaining arm's length structural firewalls between 
journalists and foreign policymakers.
    Numerous statements about these standards and the defense 
of them are in the record ever since the very first Voice of 
America broadcast in 1942, which declared ``The news may be 
good or bad. We shall tell you the truth.''
    In the decades since then, the Congress and White House 
administrations have repeatedly altered the relationships of 
the news networks and the foreign policymaking agencies. In 
1994, they created the current part-time Federal Broadcasting 
Board of Governors and double-hatted it as the oversight board 
for the original private grantee RFE/RL and then two more 
grantees were added in the intervening years, which had to do 
with creating Radio Free Asia, and the Middle East Broadcast 
Network.
    The two-decade legislation from 1994, now two decades old, 
contains the so-called firewall provisions still in effect 
which provides that, ``the Secretary of State and the board in 
carrying out their functions, shall respect the professional 
independence and integrity of the International Broadcasting 
Bureau, its broadcasting services, and the grantees of the 
Board.''
    Surely this important statement does belong in H.R. 2323. 
It adds to the important reform contained in the legislation: 
creation of a separate board of directors for the newly created 
consolidated grantee, FNN, the Freedom News Network. The 
Secretary of State alone under this legislation would be also a 
member of both the new board and the continuing BBG. All other 
members of the BBG and the Freedom Network board would not be 
double-hatted or, quote, ``overlapped.''
    Creation of this new FNN board would achieve effective 
separation of foreign policymakers and the private, nonprofit 
grantees, as I said earlier, the three of them, RFE/RL, Radio 
Free Asia, and Middle East Broadcasting Network. I support this 
change.
    Such a board is in accordance with a finding contained in a 
2013 State Department Inspector General report that observed, 
``the system of having BBG Governors serve concurrently on the 
corporate boards of the grantees creates a potential for--and 
in some cases, actual--conflicts of interest as perceived by 
many and gives rise to widespread perceptions of favoritism in 
Board decisions.'' I have nothing to support that finding. I 
just want to point it out to you.
    I would refer to the highly successful National Endowment 
for Democracy as a model for a separate nonprofit board. This 
would actually streamline and make the relationships between 
the Federal agencies and the Federal oversight agency board and 
the grantees much smoother, much more specific, and much more 
defined.
    H.R. 2323 would establish a new position of CEO to run the 
new Freedom News Network consolidating the private, nonprofit 
independent grantees. I would support the move to vest 
operational authority for the new FNN in a single agency head 
such as a CEO or a director. The purpose here is to avoid the 
double-hatting of the Federal CEO also acting as the CEO for 
the newly created private grantee. I think--I really think--
that it would seem to provide challenges in the current law, 
and H.R. 2323 states that nothing in the law shall be construed 
to make the grantee a Federal agency or instrumentality. That 
is nice to have. I think it would be a very serious issue of a 
conflict of interest arising again if we wind up in another 
double-hatted sequence.
    The courts could construe this situation as being in 
conflict with unforeseeable consequences. A single CEO would 
undermine the basic grantor-grantee relationship which, as I am 
sure many of us know, under the Federal Grant and Cooperative 
Agreement Act and its regulations, do not permit, ``substantial 
involvement, unquote, by the grantor in the activities of the 
grantee.''
    I was in my previous time as President of Radio Free Europe 
disinvited from a number of meetings because of the grantor-
grantee prohibitions. And I think this would be much more 
settled if we could have a separate board that was independent 
for the independent grantees. I support this goal to clarify 
the distinct missions of the grantees and the Voice of America.
    I want to say finally U.S. international media broadly must 
be consistent with the foreign policy objectives of the United 
States. We know that. We report and distribute news not to make 
a profit but ultimately to further free speech, human rights, 
democracy, freedom, mutual understanding, and peace where there 
is little or none. There is tremendous cooperation between VOA 
and RFE/RL. I can cite some of those if there are further 
remarks.
    I want to say that what we do and what has been done by 
U.S. international broadcasting through objective reporting on 
key issues is all in accord with article 19 of the Universal 
Declaration of Human Rights, which is cited both in current law 
and in H.R. 2323.
    I support the goals envisioned by this effective reforming 
legislation.
    Thank you for the opportunity to participate in this 
important hearing today.
    [The prepared statement of Mr. Klose follows:]

                   Prepared Statement of Kevin Klose

    Thank you for inviting me to participate in this important event 
today.
    Given the turmoil in the world, and the potential for U.S. 
International broadcasting, fewer subjects are more important or urgent 
than what the committee is addressing today. I thank you for doing so.
    As you know, I come to the subject having had experience as a 
journalist for 25 years with The Washington Post, including 4 years as 
Moscow Bureau Chief; then as President/CEO of RFE/RL (twice), 5 years; 
Director of the U.S. International Broadcasting Bureau of the BBG, 2 
years; and as President /CEO of National Public Radio (NPR), 8 years. I 
now teach journalism at the University of Maryland. So--I have seen the 
issues addressed today from a variety of perspectives. I have seen what 
works, and what does not work.
    In my first service as RFE/RL CEO in the mid-1990s, I worked 
closely with then VOA-Director Geoffrey Cowan to create a coordinated 
broadcast schedule that brought significant economies to U.S. 
international broadcasting, without diluting in any way the important 
complementary nature of the two networks. Similar cooperation continues 
today between these important, separate services. Most agree that the 
administration of U.S. international broadcasting needs to be fixed. 
There is less agreement on how to do so.
    I believe for reasons I will cite today that H.R. 2323 is an 
important step in the right direction. I support the bill's major 
provisions and would have only a few minor corrections and changes. I 
would be happy to share these with the committee at another time.
    H.R. 2323's core concept of two boards independent of each other 
reflects a decades-long evolution toward assuring the highest 
professional standards and principles of journalism for U.S. 
international media--by describing and maintaining an arm's length 
structural ``firewall'' between journalists and foreign policymakers.
    Numerous statements about these standards--and defense of them--are 
in the record ever since the very first Voice of America broadcast in 
1942 declared, ``The news may be good or bad. We shall tell you the 
truth.''
    In the decades since, the Congress and White House administrations 
repeatedly altered the relationships of the news networks and foreign 
policymaking agencies, in 1994 creating the current parttime federal 
Broadcasting Board of Governors, and double-hatting it as the oversight 
board for the original private grantee RFE/RL as well as a brand new 
independent grantee, Radio Free Asia (RFA). This legislation contains 
the so-called ``firewall provision'' still in effect, which provides 
that ``The Secretary of State and the Board, in carrying out their 
functions, shall respect the professional independence and integrity of 
the International Broadcasting Bureau, its broadcasting services, and 
the grantees of the Board.''
    Surely this important statement belongs in H.R. 2323. I reckon it 
should be included. It adds to the important reform contained in H.R. 
2323: creation of a separate board of directors for the newly created 
consolidated grantee, Freedom News Network (FNN). The Secretary of 
State alone would be a member of both this new board and the continuing 
BBG. All other members of the BBG and the FNN board would NOT be 
double-hatted, or ``overlapped.''
    Creation of this new FNN board would virtually guarantee effective 
separation of foreign policymakers and the private, nonprofit grantee 
networks--RFE/RL, RFA, and Middle East Broadcasting Network (MBN). I 
support such a change.
    Adding such a board is in accordance with a finding contained in a 
2013 State Department IG report that ``The system of having BBG 
Governors serve concurrently on the corporate board[s] of the grantees 
creates the potential for--and in some cases, actual--conflict of 
interest, as perceived by many and gives rise to widespread perception 
of favoritism in Board decisions.'' I would add that such a separation 
also strengthens the journalistic independence and integrity of the 
grantees.
    I would refer to the highly successful National Endowment for 
Democracy as a model for a separate nonprofit board.
    H.R. 2323 also would establish a new position of CEO to run the new 
Freedom News Network consolidating the private, nonprofit independent 
grantees. I would support the move to vest operational authority for 
the new agency in a single agency head such as a CEO or director.
    Rather than create two separate CEO positions, some commentators 
may advocate ``double-hatting'' the federal agency CEO as also the CEO 
for the newly created private grantee organization. I oppose such an 
arrangement, as it would seem to challenge provisions in current law 
and in H.R. 2323 stating that nothing in the law shall be construed to 
make the grantees a federal agency or instrumentality. A federal 
employee as the single CEO of all USIM would undermine the important 
separations intended in H.R. 2323. It would present serious conflict of 
interest issues such as noted for the board in the 2013 IG report. H.R. 
2323 states that nothing in the law shall be construed to make the 
grantees a federal agency or instrumentality.
    But the courts could construe otherwise, with unforeseeable 
consequences. A single CEO would undermine the basic grantor-grantee 
relationship which under the Federal Grant and Cooperative Agreement 
Act and its regulations do not permit ``substantial involvement'' by 
the grantor in the activities of the grantee.
    Placement of a federal CEO over the grantee FNN would undermine the 
long-standing arm's length relationship with the Federal Government so 
necessary for preservation of grantees' journalistic independence and 
credibility.
    I support the goal of H.R. 2323 to clarify the distinct missions of 
the grantees and the VOA. Grantees focus on reporting local and 
regional news for their countries' Internet, wifi, social media, and 
radio publics--substitutes or ``surrogates'' for often malign, local 
media who are ``DIS-INFORMATION specialists.'' Unlike the VOA, the 
grantees do not broadcast editorials which represent the views of the 
United States Government, or produce much news about the United States.
    Preserving the BBG-grantee arm's length relationship protects 
grantees and the Department of State from complaints by foreign 
governments about grantee broadcasts.
    After pondering yesterday's hearing, and discussing it yesterday 
with two informed and trusted former colleagues who witnessed it, I 
have concluded that many of the issues relate to the two very different 
missions of the VOA and the grantees. I was reminded that Senator 
Cardin had said something to the effect that all the broadcasters have 
the same mission.
    As an aside, I should briefly note first that placing the VOA and 
grantees together in one federal or private organization is not 
practical or feasible at least at this time. Attempts to privatize the 
VOA particularly in an election year would be a nonstarter. The unions 
for federal employees would make every effort to oppose such a move. 
Attempts to federalize the grantees such as were made in the 1990s 
would meet with great opposition by the grantees for the reasons 
discussed below.
    The VOA as a federal news agency fulfills its important role in 
international media by focusing almost exclusively on reporting 
America's remarkable story to the world, through comprehensive American 
news, American events, culture, politics, and lifestyles. H.R. 2323 
fully embraces that powerful mission, structure, and operational 
reality of the Voice of America--strengthened years ago by the Act of 
Congress that brought to life the carefully worded Charter that shields 
VOA from pressures aimed at influencing its newsrooms.
    Radically different from the VOA and its American-news mission are 
the trio of independent, private journalism organizations--Radio Free 
Europe/Radio Liberty, Radio Free Asia, and Middle East Broadcast 
Network--that specialize in and excel at the extremely difficult 
mission of providing fact-based, verifiable LOCAL news to peoples 
across Eurasia whose repressive governments fear and despise accurate 
factual reporting to their subjugated citizenry of the leaderships 
predatory, secretive, illegal activities of governing authorities. The 
news reporters, editors, and producers of the FNN well know and 
effectively probe and reveal to their LOCAL audiences and social media 
followers the tightly-held Orwellian power structures of Soviet-style 
successor regimes.
    This mission is not that of the Voice of America. This mission is 
properly the work of the very same independent, nonprofit, journalism 
corporations that the U.S. Congress has had the sturdy wisdom to create 
in four different epochs across the decades of the cold war, and the 
tumultuous years since the U.S.S.R.'s collapse.
    H.R. 2323 correctly empowers a rational and intelligent merger of 
the three ``freedom'' networks under a new private, corporate board 
with a majority of members to be drawn from private journalism. This 
reorganization and new, independent board will save taxpayer money and 
inspire powerful new forms of multiplatform truth-telling about 
repressive leaderships.
    VOA and the freedom networks powerfully support U.S. national 
interests though the promotion by professional journalism of the right 
of freedom of opinion and information, human rights, democracy, 
freedom, mutual understanding, and peace where there is little or none. 
They all do so in accordance with Article 19 of the Universal 
Declaration of Human Rights and the broad foreign policy objectives of 
the United States. Yet, the goals and means by which they achieve these 
broad objectives are strikingly different. These significant 
differences play a critical role in how they are structured. 
Furthermore, the differences in mission between the VOA and the 
grantees have a direct bearing on the discussion of overlapping boards 
and CEO's.
    The critical relationship between mission and structure has been 
noted by both congressional and executive branch reviews of possible 
reform of U.S. International broadcasting. In 1991 the Congressional 
Research Service issued a report entitled ``U.S. International 
Broadcasting: An Assessment For Reform.'' It stated that ``The missions 
of VOA and RFE/RL also have a determining role in the two radio's 
organizational structure and consequences for attempting to reorganize 
them into a single organization.''
    The report describes the different missions in detail, and states 
the following: ``In contrast [to the VOA], RFE/RL does not require 
tight policy links to the Executive--in view of many officials, the 
radios require exactly the opposite to perform their mission. As a 
result, RFE/RL is constituted as a separate institution, and as such, 
has been spared the perennial conflicts over its administrative 
independence from a larger bureaucracy.''
    Also in 1991, the Report of the President's Task Force on U.S. 
Government International Broadcasting stated: ``Though many of us came 
to this inquiry with the notion that U.S. International broadcasting 
should be cast as a single entity, we found the functions of RFE/RL and 
the VOA were so disparate that whatever path we chose to achieve 
consolidation had a pronounced artificiality. We were not creating 
efficiencies.''
    In 1993, and again in 1997, efforts to sweep RFE/RL under the 
executive branch were successfully and soundly defeated in Congress due 
primarily to the efforts of Joseph Biden who was then in the U.S. 
Senate. Senator Biden wrote the following in a Senate report in 1993: 
``The simple truth is this: RFE/RL, Inc. have enjoyed credibility for 
four decades precisely because their analysts and broadcasters have not 
been employees of the U.S. Government. If the radios now become direct 
agencies of the U.S. Government, they will maintain neither the 
appearance nor the reality of journalistic independence.''
    Does the appearance of journalistic independence really matter? The 
1991 President's Task Force on U.S. Government International 
Broadcasting stated that ``It appears to us that BBC enjoys comparative 
credibility in part because it is not under direct government control--
or is not perceived to be.''
    A fundamental premise underlying H.R. 2323, as well as over 70 
years of history, reveal that the VOA and the grantees have very 
different specific missions that call for separate structures, rules, 
and ways of operating. Any attempt to meld the two organizations 
structurally would be seriously detrimental to the successful 
accomplishment of both of those missions. Both missions are important, 
and they complement each other.
    Since its inception the VOA was charged by law with telling 
America's story to the world. That fundamental mission has not changed 
for over 70 years. In 1942 it was part of USIA's mandate under the 
Smith-Mundt Act to provide for `` . . . The preparation, and 
dissemination abroad, of information about the United States, its 
people, and its policies.'' That broad mandate was not changed by 
either the VOA Charter or the U.S. International Broadcasting Act of 
1994. In 1998, Congress made explicit in law the requirement that VOA 
include editorials which present the views of the United States 
Government, and it also required broadcast by VOA of certain 
information about the states of the U.S.
    The original charter of the VOA drafted during the Eisenhower 
administration referred to the VOA as `` . . . an official radio.'' In 
1963, the Director of USIA, Edward R. Murrow, wrote a letter containing 
the following: ``The Voice of America . . . represents the U.S. 
Government in explaining our foreign policies and bringing the news of 
the United States to these captive countries. Radio Free Europe 
confines its broadcasts to the captive nations behind the Iron Curtain, 
speaks to them in their own terms, and produces news of their own 
countries and their neighbors--news which is denied to them or 
distorted by the ruling Communist regimes. The combination of Voice and 
America and Radio Free Europe is much more effective, in the cause of 
freedom, than either could be individually.''
    This succinct declaration by Ed Murrow is as accurate today as when 
he first wrote it. Indeed, long-established structures of each 
organization reflect and support each mission. Understandably, given 
the VOA's mission, it has been part of a U.S. Government agency. Its 
employees are federal employees. It has strong links to the Department 
of State. Of course, being a federal organization, it is governed by 
governmental regulations relating to personnel, contracting, and others 
matters. The VOA is perceived by foreign audiences to be what it is--
the U.S. Government's voice abroad which broadcasts news and 
information, and which ``represents America'' and ``will present the 
policies of the United States . . . '' (VOA Charter)
    In stark contrast, the ``freedom'' grantees do not focus on news or 
information about the United States, nor do they have official U.S. 
Government editorials. Instead, they stress local and regional news in 
the native languages of the countries to which they broadcast. They are 
in essence substitutes or ``surrogates'' for private local stations. 
Appropriately, they are 501(c)(3) private corporations, and they often 
have local names for their stations. Their employees do not work for 
the Federal Government. Many of them work abroad. The credibility of 
these private stations depends on the reality and perception that they 
are not mouthpieces for the U.S. Government. Furthermore, the grantees 
often are far more nimble administratively and operationally than the 
VOA because they are not bound by governmental regulations.
    Often the broadcasts of the grantees about local events are more 
threatening to local dictators than those of the VOA. Thus, when local 
governments complain to U.S. ambassadors about such broadcasts, 
ambassadors and State Department can credibly respond that they have no 
control over the content of the grantees which are private 
organizations. This arms-length distance provides ``plausible 
deniability'' to the State Department.
    Testimony was given on November 17, 2015, by BBG representatives 
that two boards and two CEOs for the VOA and the grantees is tantamount 
having two coaches for the same football team. This analogy is facile--
but dead wrong. As noted by both congressional and executive branch 
analyses, as well as many others, the VOA and grantees are 
fundamentally different as to purpose, rules, strategy, preparation, 
and experience. While they complement each other, they are refreshingly 
different kinds of teams. A better question is why hire a volleyball 
coach to coach both the volleyball team and the football team? It does 
not make sense.
    A myriad of problematic issues arise by double-hatting the BBG and 
grantee boards and CEO's. Here is a brief summary:

    1. Double hatting both the BBG board and the CEO presents clear 
conflicts of interest. The IG report of January 2013 about the BBG 
states that ``The system of having BBG Governors serve concurrently on 
the corporate board[s] of the grantees creates a potential for--and, in 
some cases, actual--conflict of interest, as perceived by many and 
gives rise to a widespread perception of favoritism in Board 
decisions.''
    2. Double hatting undermines the long-standing legal requirement 
that nothing in the 1994 broadcasting act `` . . . may be construed to 
make [the grantees] a Federal agency or instrumentality.'' Daily 
governance of the grantees by a federal official would basically render 
the grantees in the eyes of the law agents for the U.S. Government.
    3. Double hatting would undermine the arms-length relationship 
between the USG and the grantees necessary for the credibility and 
success of the private grantees. See the discussion above.
    4. Double hatting likely would expose both the USG and the grantees 
to greater legal liabilities. For example, disgruntled employes of 
grantees could try to avail themselves of the elaborate and time-
consuming personnel and contracts appeal procedures of the USG arguing 
that the grantees are in effect under the ``control'' of the USG. On 
the other hand, the BBG likely would also be sued by the same persons 
under the same theory.
    5. Double hatting also would contradict the requirement of the 
Federal Grant and Cooperative Agreement Act and implementing 
regulations precluding ``substantial involvement'' by federal grantors 
in the activities of a grantee.
    6. Double hatting could result in application of governmental rules 
to the grantees, and therefore diminish their advantages as private 
corporations to be more economical, efficient, and flexible.
    7. As already noted, double hatting could diminish the ability of 
the USG to engage in plausible deniability when foreign governments 
complain about grantee broadcasts.
    8. Double hatting runs counter to the long unfortunate history of 
the oversight boards (BIB and BBG) to attempt to micromanage operations 
as well as interfere with broadcasts. See for example the finding in 
the January 2013 IG report that ``Although legislation establishing the 
responsibilities of the Governors is clear regarding the boundary 
between supervision and day-to-day management, individual Governors 
have interpreted the law differently and determined their open 
fiduciary responsibilities, which has in turn impeded normal management 
functions.'' See also my long history to you in a previous email on 
this subject.
    9. Finally, the argument that double hatting would quicken 
reallocation of resources during times of crisis is bogus. The BBG 
board currently has authority `` . . . To allocate funds appropriated 
for international broadcasting activities among the various elements of 
the International Broadcasting Bureau and the grantees,'' . . . subject 
to reprogramming notification requirements in law for the reallocation 
of funds.'' Frankly, any significant delays in reallocation usually 
occur due to stringent congressional oversight during the reprogramming 
process.

    The bottom line is that there has been a long and largely 
successful history of activity by the grantees. H.R. 2323 builds and 
expands on that history by creating a separate board for the grantees 
with relevant experience and expertise to oversee them based on the NED 
model. H.R. 2323 also is based on the concept of very different 
missions for the VOA and the grantees, both of which are important. 
Both important missions would be strengthened, not diluted. H.R. 2323 
also ensures ample coordination and cooperation among the grantees, the 
newly created BBG agency, and the State Department. It wisely does not 
federalize or bureaucratize the grantees, or subject them to increased 
governmental operational control.
    I support the goals envisioned by this effective reforming 
legislation. Thank you for the opportunity to participate in this 
important hearing.

    The Chairman. Well, thank you both for being here and for 
your insights having previously served in capacities to 
understand.
    Let me just seek some degree of common ground. The board 
seems to indicate--the board has indicated that the board 
itself is functioning in a better capacity than in times past. 
Would you all agree or disagree with that?
    Mr. Klose. I would agree with that by my observations 
dating specifically from 2013 when I returned to Radio Free 
Europe and spent 14 months as interim president and CEO. Yes.
    Mr. Wimbush. I am not totally in agreement with that, 
Senator. And I have to say the hair on the back of my neck goes 
up every time I hear the last board blamed for some of the 
problems that this board has encountered. The last board put a 
radial restructuring plan in place, which has now, much of it, 
gone into this proposed legislation. The last board proposed 
the CEO. The last board did lots and lots of good things. What 
this board has that was unknown in my board is comity among the 
various members. They like each other. They obviously work 
together very well. But the structural impediments to making 
that organization effective are just as bad for them as they 
were for us, and they are not going to be corrected by all the 
friendship, all of the putative cooperation that they have 
described today.
    The Chairman. And I think they have said that. I mean, they 
said that obviously there are reforms that they support.
    You do support the fact that a CEO is on a full-time basis 
running the entity. Is that correct?
    Mr. Wimbush. We did. In my board, we realized that the 
place was so badly out of control that the inability to get 
economies of scale and to recognize asset sharing and saving 
across all these different networks was completely out of our 
hands, that we proposed putting a CEO in place. It took 5 years 
for one to get there. I mean, that is a good example of just 
how difficult it is.
    The Chairman. Believe me, all of us have had a lot of 
concerns about BBG.
    So on those issues, we have an agreement. We have agreement 
generally speaking. I know there are some important details 
that each of you talked about in your testimony.
    The piece that I am trying to understand is this issue that 
you all have focused on so much in your testimony and that the 
previous panel disagreed with so much is the grantees 
themselves----
    Mr. Klose. Yes, sir.
    The Chairman [continuing]. Having their own board. I am 
sorry because I am just not internally working at BBG, I am not 
sure I understand fully the relationships. But if you could 
expand on that for me I would appreciate it.
    Mr. Klose. The history speaks for itself to a degree. The 
radios, Radio Free Europe, Radio Liberty, were created in the 
late 1940s/early 1950s, and they were specifically created as 
501(c)3's chartered in the State of Delaware as private, 
independent nonprofit corporations. The reason they did that 
was because they wanted to have, first of all, clarity about 
what they were doing, secondly, because they wanted to be able 
to have for ambassadors in countries which were now 
encountering the truthful surrogate broadcasting being provided 
by Radio Free Europe and then Radio Liberty--many of those 
leaders, many of those despots were very unhappy and were very 
unhappy and wanted to blame the U.S. Government directly make 
it that kind of a sequence. Ambassadors were allowed--were 
given the freedom to say we deny it. They have nothing to do 
with us. They do their journalism, their reporting on their own 
standards, and we are not responsible. It is not part of our 
foreign policy writ. They are independent from us. Do not come 
to us complaining. Go to Radio Free Europe, Radio Liberty, and 
their headquarters is in the State of Delaware. That is where 
you will find their corporate place.
    Mr. Wimbush. Mr. Chairman, from the beginning, these 
surrogates, the grantees, and the Voice of America, the Federal 
agency, were two very, very different animals. And they always 
advertised themselves as very different animals.
    With the end of the cold war, it became easier for 
everybody to do everything in this broadcast environment. And 
so you began to get a kind of homogenization. Most of the non-
English language services of the Voice of America do what they 
think is surrogate broadcasting. Radio Free Europe and Radio 
Free Asia and MBN do surrogate broadcasting.
    Why do they all do surrogate broadcasting without getting 
any kinds of synergies or very few kinds of synergies or 
economies or asset sharing across these boundaries?
    I would argue, as I had mentioned in my earlier remarks, 
that Chairman Shell is wrong on this point. His explanation 
tended to go in the direction of the surrogates being no longer 
as valuable as they were because they are some kind of a 
historical residue. I would argue that the surrogates right 
now, because of the way the media environment has evolved, are 
more valuable than they have been at any time since 1992 or 
1993.
    Mr. Klose. Mr. Chairman, I might add also you can hear 
people describe the fact that there might be the surrogate 
service and a Voice of America service to one country or to one 
region and call that overlap or duplication. I have a different 
take on that entirely, and I take it from my experience at NPR 
where there was both national and local, which gave a 
tremendous depth in terms of its services to those communities. 
I view these two different services going to one place as 
parallax. I actually have two headlights that function in my 
car at night. I need two headlights. I think it is better than 
one headlight. And I think that the idea of caviling over how 
much or how little is being spent in these two different 
services which provide different services to those 
listenerships, those social media-ships, and the publics that 
are receptive of both these organizations' parallax 
presentations gives it depth and meaning that otherwise would 
not be there. I think it is very important to the authenticity 
of what the U.S. is doing especially in countries like----
    The Chairman. Well, if I could just briefly because I am 
going to run out of time and I want to turn to the ranking 
member.
    If you had then the structure that they laid out, are you 
saying that that would cease and desist those dual--I mean, if 
they have it the way they have laid it out where they have one 
board for both, what would happen relative to those two 
different types of messaging reaching people in these 
countries?
    Mr. Klose. Well, in fact, in places like Russia and 
Ukraine, there is tremendous cooperation between the Voice of 
America, the Federal media agency, and Radio Free Europe, Radio 
Liberty. And I think there is similar cooperation between Radio 
Free Asia and the Voice of America in the countries they go to. 
And I do not think that having two boards is going to make that 
more difficult. I think it is actually going to make it a lot 
easier. And I think that the cooperation which goes way back to 
the original----
    The Chairman. That is not my question. Having one board as 
they have proposed--would it diminish the concept that you just 
laid out?
    Mr. Klose. I think that having two boards underlines the 
fact that the grantees are independent, that they are not 
direct government entities, and I think that is important to 
the double credibility of both organizations. I really do. It 
enhances it. It streamlines it. It makes it more concrete and 
real. And I think that the radios, the grantees, the three of 
them now, have done very well and that they are able to 
demonstrate their independence in particular ways. They often 
are much more efficient. They are much quicker. They do not 
have a lot of the requirements that are required of Federal 
agencies, which I do not want to get into as a negative. It is 
just a different setup. They can move faster sometimes than you 
might imagine.
    Mr. Wimbush. Mr. Chairman, I have a very different view I 
have to say, and Kevin, of course, knows this. I think the 
whole idea of parallax is a colossal waste of the taxpayers' 
money.
    We should be getting, for the most part, the non-English 
language services that are duplicated by the Voice of America, 
Radio Free Asia, and Radio Free Europe, Radio Liberty--we 
should be getting them into one organization. That is where 
they belong. That is where you can get shared assets. That is 
where you can move resources within an organization much, much 
faster than trying to move them around organizations.
    And a true telling of what happened when the Ukraine crisis 
broke out and Radio Free Europe, Radio Liberty, and the Voice 
of America found that they were going to be put on the block to 
cooperate--the true story of that really needs to be told 
because it was tough. It was hard. Every board, including the 
one I served on, insisted on more cooperation. We had 
cooperation. We had coordination. We had harmonization. We had 
parallax. And none of it worked.
    Mr. Klose. I might say----
    The Chairman. If I could--I apologize. I am going to have 
to move to Senator Cardin. I am way over my time. He will 
probably give you the courtesy----
    Senator Cardin. I am going to continue in this exact same 
line.
    Professor Klose, it is good to have you here.
    Mr. Klose. Thank you, sir.
    Senator Cardin. I am proud of your work at the Philip 
Merrill College of Journalism in College Park. We are very much 
familiar with your work there and very proud of your public 
service. So it is a pleasure to have you before the committee.
    I want to try to simplify this a little bit because I think 
the question the chairman is asking is very important. I am for 
reform, as I said in my opening statement. I think we really 
need to streamline the process and have a clear direction for 
the CEO.
    But let us talk a moment about one board or two boards. It 
is all public money, if I understand. All of the journalists, 
whether they work for the government or work for the grantees, 
must have independence. That is a key factor of the Voice of 
America or our grantees. They all have a common mission, that 
is, to get information out that is important to advance U.S. 
interests. The grantees are more regional and local. The Voice 
of America is more centralized in its mission.
    So let me just play the devil's advocate for one second. 
Why not go even further? Why not just have one agency here? Why 
not allow these funds to be fungible so that we can be quickly 
responsive to the needs of America based upon an independent 
board with a CEO working closely with Congress so that we can 
allocate the resources as efficiently and quickly as possible, 
maintaining journalistic independence, and maintaining the 
overall mission integrity and accountability through the board 
to the Congress?
    Mr. Klose. Senator Cardin, I might just respond. One thing 
that is not mentioned there is what would that single 
organization be. Would it be a Federal agency or would it be an 
independent, private, nonprofit corporation?
    Senator Cardin. Well, it is all governmental money.
    Mr. Klose. Yes, sir.
    Senator Cardin. We have to understand that. And I 
understand that the grantees are nongovernmental. I really do 
understand that. But we are talking about public funds, and if 
the concern is the integrity and independence of the grantees, 
then do we not have that problem with the Federal program, 
which we brag about its independence as far as its journalists 
are concerned?
    Mr. Wimbush. Absolutely, Senator. You are looking at two 
different beasts here. It is not one company. It is two 
companies. And they are very different. The single organization 
solution is the optimum solution. More optimum would be to have 
it outside the Federal Government, a BBC-like arrangement. But 
that means that you are going to have to de-federalize some 
pieces of U.S. international broadcasting, and that is tough. 
You know that better than I do. But certainly that is the 
optimum way. Short of that, the proposed legislation to create 
real pockets of excellence, two boards that do not overlap, two 
boards that can function efficiently for their separate 
missions, I think is the best solution.
    Mr. Klose. And on the grantee side, I do believe that a 
consolidation would make streamlined and make more coherent 
what the grantees do. I think it is a matter which I think 
makes much sense. And I think that the thrust of the 
legislation in that direction I think is something which----
    Senator Cardin. But I am throwing out a radical change 
here. I am saying not only bring the three grantees together. 
Why should there be a difference between the three grantees and 
the Voice of America?
    Mr. Klose. I would say, sir, in my history, I have worked 
for independent, private--almost always--private either for-
profit or nonprofit news organizations. And I find that very 
compatible to the kind of journalism that I am used to doing, 
being part of, and directing. And that has to do with the 
private organization.
    Senator Cardin. I just tell you in my experiences with the 
Voice of America and the people who work for the Voice of 
America, they are top flight. They are good people. So I do not 
think it has inhibited them to be a Federal agency.
    You may be right. I am not arguing whether it should be 
Federal or whether it should be private. That is not my issue. 
My issue is why should there be a differential between the 
Voice of America and the three grantees.
    Mr. Klose. I think the core reason from my perspective is 
based on the powerful history, which is the independence of the 
grantees gave them a kind of access to people in the broadcast 
target regions who were very responsive to as much distance as 
you could get between credible media and the role and the 
presence of the government in their activities, in their 
thinking, in their strategies, and in their devotion to 
independence.
    Mr. Wimbush. They do very different things, Senator. 
Especially surrogate broadcasting, which is research-based, 
requires a very different approach to how one thinks about 
addressing these audiences especially as the surrogate function 
increasingly is going to be aimed at local media, below the 
national media level. The Voice of America has never been 
configured to do that effectively. So why do we want to keep 
all of those language services over there, which sort of 
pretend to be able to do this? Some of them are doing surrogate 
broadcasting or say they are. Why do we not get the people who 
can do surrogate into an organization that does surrogate, give 
it its own direction and its own board?
    I am a businessman as well, and when I listen to the 
businessmen who were up here prior to our appearance, I am 
confused by this idea, well, you know, we are just going to 
have one director and one board looking after a whole bunch of 
apples and oranges. Why is that efficient? I do not see that as 
efficient at all. Let us put the organizations that cohere 
together and invest assets in them that will allow them to hit 
their target with the sharpest point of their spear.
    Mr. Klose. Senator, I might add I think that what you are 
hearing here is we may not realize this but we are actually in 
furious agreement.
    Mr. Wimbush. Well, we do agree.
    And by the way, the NED example that Kevin has suggested--
the National Endowment for Democracy--for the surrogates is a 
very, very good example. A very good example.
    Senator Cardin [presiding]. Well, I think this debate has 
been extremely interesting. I think it makes it clear that 
Congress needs to act. I think that is absolutely essential. 
We, of course, have what is proceeding through the House of 
Representatives, and I know the chairman is very interested in 
trying to get consensus here in the United States Senate. So 
this testimony has been extremely helpful, and we will look to 
try to homogenize some of these ideas. There is no question 
that we all agree there can be greater efficiency and there has 
got to be greater accountability. And we understand that. We 
also understand it has to be more nimble and to be able to 
respond quickly to the challenges that we face, that what other 
countries are doing is probably more challenging today than at 
any time in modern history. So the work being done here by BBG 
is very important to our country.
    For the information of members, the record will remain open 
until the close of business Thursday, including for members to 
submit questions for the record.
    We would ask the witnesses if questions are submitted that 
you would respond promptly to the questions so they can be made 
part of the record.
    On behalf of Chairman Corker, I want to thank both of you--
and me--thank both of you very much for your testimony.
    And with that, the committee will stand adjourned.
    [Whereupon, at 4:29 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

                [From the Weekly Standard, July 3, 2014]

            Fixing U.S. International Broadcasting--At Last!

               (By Dennis Mulhaupt and S. Enders Wimbush)
    What return on investment do American taxpayers receive for the 
money we pay for international broadcasting in 61 languages from the 
Voice of America and five other USG-funded media organizations? And is 
that investment effective? The answer to each question is, we believe, 
not nearly enough.
    Having recently spent several years on the Broadcasting Board of 
Governors (BBG), the presidentially appointed and Senate-confirmed body 
responsible for oversight of international broadcasting, we have 
serious reservations about the effectiveness of the taxpayers' current 
investment of $720 million. In our experience, U.S. international 
broadcasting is run by a dysfunctional organization in pursuit of an 
unfocused mission attached only tenuously to U.S. foreign policy 
objectives. This state of affairs is the result of the last round of 
``reforms'' to international broadcasting in the 1990s. It hasn't 
worked.
    Fortunately change is in the air again, this time serious reform 
that actually addresses U.S. international broadcasting's many 
challenges.
    The BBG--the product of the U.S. International Broadcasting Act of 
1994 and the Foreign Affairs Reform and Restructuring Act of 1998--is a 
perfect storm of unworkable structure, broken governance, and no 
management. Try to follow this.
    Today's BBG oversees six separate international broadcasting 
organizations. Three--the Voice of America (VOA), the Office of Cuban 
Broadcasting (OCB), and the International Broadcasting Bureau (IBB)--
are part of the BBG federal agency, which operates under federal 
guidelines much like all other federal agencies. The other three 
organizations--Radio Free Europe/Radio Liberty (RFE/RL), the Middle 
East Broadcasting Networks (MBN), and Radio Free Asia (RFA) are federal 
``grantees.'' This means that they are not a direct part of the federal 
agency, but rather are set up as non-profit 501(c)3s operating as 
private companies. Thus the BBG is responsible for reconciling two 
incompatible governance models, one federal and one private.
    These six different media organizations compete for funding to 
support their diverse missions, with members of the BBG supposedly 
responsible for adjudicating which organizations get how much and for 
what. Yet in an obvious conflict of interests, members of the BBG 
separately and at the same time form the supposedly independent 
fiduciary board of each grantee. In practice, this means that each BBG 
board member is actually a member of the board of no less than four 
theoretically independent and competing entities, while still retaining 
separate jurisdiction over the non-grantees--the VOA, OCB, and IBB--in 
the federal agency. Not surprisingly, little incentive exists for the 
different networks to cooperate by combining capabilities, sharing 
assets, creating synergistic strategies or shutting down duplication. 
In fact, they spend a disproportionate amount of time competing with 
each other for funds and advantage, putting their respective boards 
squarely in the middle, while important strategic and mission-focused 
activities often suffer.
    The original concept of the board itself abets the dysfunction. The 
BBG was designed to be a part-time bipartisan oversight group of four 
Democrats and four Republicans, with the sitting Secretary of State 
serving ex officio as the ninth member. In practice this means that 
most Governors have outside jobs, often as heads of major corporations 
or institutions, and little time to oversee six complex media 
organizations. The chairman has no special powers or authority, just 
one vote. No one is in charge. And with no management structure--no 
CEO, COO or even an operational director--the BBG defaults to those 
individual Governors who may be inclined to interfere directly in the 
operations of the networks, seldom, in our experience, to good effect.
    Confused yet? No one can seriously believe this is a good way to 
rationalize and manage a complex organization in a fast-changing media 
environment dedicated to serving hundreds of millions of people across 
the globe in need of coherent news, perspectives, analysis, and an 
understanding of American objectives, policies, and attitudes.
    The muddle deepens when one considers U.S. international 
broadcasting's dual purpose. The notional division of labor for U.S. 
international broadcasting is, first, to support America's public 
diplomacy by explaining American policy and ``telling America's story'' 
to listeners and viewers worldwide while offering a menu of objective 
news and information. The second function is to provide ``surrogate'' 
media services focused on local news, with analysis and commentary, in 
societies where media are not independent or are easily influenced or 
intimidated.
    The public diplomacy role--explaining American policy and telling 
America's story--belongs to the Voice of America, or should. The 
``surrogate'' broadcasting role was originated and made famous by Radio 
Free Europe and Radio Liberty during the Cold War, which is the model 
for the other grantee organizations. But in reality, the division of 
labor between public diplomacy and surrogate broadcasting is in the eye 
of the beholder, with the blurring of responsibility most notable at 
the Voice of America, which duplicates a number of the ``surrogate'' 
language services of RFE/RL and Radio Free Asia. At the same time the 
VOA's broadcasts to some markets, for example to sub-Saharan Africa 
where it is the only U.S. broadcaster, are mostly ``surrogate'' by 
design.
    Meanwhile VOA's public diplomacy function is out of favor with many 
at VOA, who complain that it should be an independent news agency free 
of compromising associations with U.S. policy. Back to the taxpayers, 
who might be forgiven for asking why they should be footing the bill 
for adding more ``news and information'' to an saturated global media 
universe--already exploding from thousands of traditional, new, and 
social media sources in virtually every corner of the world--without so 
much as a mention of America's interests or points of view. What's the 
point? Where's the return on investment?
    In early 2011, we were two of three principal authors of a radical 
plan that addressed all of these issues. That plan called for 
refocusing VOA's mission and consolidating the grantee networks into a 
single organization, where strategic priorities could be set and assets 
shared; a chief executive officer to manage all U.S. international 
broadcasting's day-to-day operations (thereby getting the board out of 
management); and the elimination of competing broadcasting efforts 
spread across the five networks. The BBG voted unanimously to adopt the 
plan. Almost immediately one or two members consistently and 
successfully blocked efforts to implement it. Today, more than three 
years later, not much has changed: no consolidation, no CEO, and little 
progress on ending duplication and waste. And U.S. international 
broadcasting remains as distant from any connection to our nation's 
foreign policy objectives as ever.
    The United States International Communications Reform Act of 2014 
(H.R. 4490) will change this. It incorporates most elements of our 
proposed plan and goes one better: it abolishes the BBG. This 
bipartisan bill, sponsored by Congressman Ed Royce, Chairman of the 
House Foreign Affairs Committee, and ranking member Elliott Engel, 
calls for strengthening the congressionally mandated and longstanding 
missions of the VOA (public diplomacy) and the grantees (surrogate 
broadcasting), and it creates urgently needed new oversight and 
management structures for each to implement them effectively.
    First, the legislation replaces the BBG with the U.S. International 
Communications Agency (USICA), which will have direct jurisdiction over 
only the federal agency, which is over the VOA and the Office of Cuba 
Broadcasting. (The International Broadcasting Bureau, an anomaly from 
the earlier reform acts, will be abolished.) USICA will have its own 
CEO, who will be responsible for day-to-day management of the agency.
    Second, H.R. 4490 will consolidate the surrogate Radio Frees--RFE/
RL, MBN and RFA--into a single grantee organization, the Freedom News 
Network, with its own board and CEO apart from USICA. Surrogate 
broadcasting, a powerful foreign policy soft power instrument, will get 
a new impetus and stronger strategic connections to broad U.S. foreign 
policy objectives as well as a new, worldwide mandate.
    Pushback on the proposed legislation, which passed out of the House 
Foreign Affairs Committee unanimously in June, has been light, with 
even the VOA's unions in support. Some veterans of VOA have expressed 
concern that the Royce/Engel reforms could lower the firewall between 
U.S. international broadcasting and meddlesome policy bodies, 
especially the State Department.
    We believe this concern is overblown. In fact, the new bill 
reaffirms the important safeguards enshrined in the VOA Charter passed 
by Congress and signed by President Ford almost 40 years ago. But, the 
Voice of America is America's voice, not an independent agent like CNN. 
No one can plausibly imagine that ``political neutrality'' is part of 
its raison d'etre, nor should it be. And, in fact, our global audience 
is not naive, they generally are aware of the networks' U.S. government 
connections (indeed the U.S. link is continually pointed out by their 
own government's propaganda, yet they choose to listen or watch 
anyway). Research also shows consistent patterns of audiences wanting 
more discussion of U.S. policy, opinions, and attitudes, not less, on 
issues of concern to them.
    In today's global media environment, much of it implacably anti-
American, presenting honest and objective discussions of American 
interests, policies and strategies has never been more important. We 
believe that this, first and foremost, is what American taxpayers 
expect from their investment in VOA.
    The surrogate networks, too, are seeing their historic mission gain 
urgency. Events in Ukraine are a wakeup call that the competition over 
local media is a central battleground in the struggle against 
aggressive states like Russia. Asia and the Middle East are 
particularly challenging media battlegrounds where surrogate media is 
critical. The trend of authoritarian regimes to censor local news is 
growing alarmingly, and the surrogate broadcasters present an 
existential challenge to these efforts. Most important, the surrogates 
puncture these regimes' preferred narratives, which many compliant 
local media tailor to their regime's preferences while willfully 
ignoring evidence of their mendacity. Think of how Russia overloaded 
local media with pernicious narratives of its motives and actions in 
Ukraine.
    This is a more complex, nuanced, and competitive environment with 
many more players. Russia, China, Iran, and Middle Eastern states are 
investing massively to increase their media reach, sophistication, and 
credibility. We need to face facts: our competitors are making serious 
public diplomacy inroads at the expense of American and Western values 
and interests throughout the world. The Freedom News Network, assuming 
the legislation passes, will have its work cut out and will require 
substantial support from Congress. This low cost, high impact 
competitive instrument should become once again a reinvigorated part of 
America's soft- and smart-power.
    We are engaged in a global war of ideas and U.S. government-funded 
media can be one of the strongest and most cost-effective means we have 
to compete successfully. The proposed reforms are badly needed, long 
overdue, and deserve support. Like all efforts to reform things that 
have been badly broken for a long time, H.R. 4490 is not perfect. But 
it is an important--indeed, admirable--effort to set necessary reform 
in motion. It is also a heartening example of real bipartisan 
cooperation to achieve important results. From our experience on the 
front lines of U.S. international broadcasting, this urgent reform 
cannot happen soon enough.
                                 ______
                                 

              A 21st Century Vision for U.S. Global Media 
                  by Ross Johnson and R. Eugene Parta

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

              Reassessing U.S. International Broadcasting 
             by S. Enders Wimbush and Elizabeth M. Portale

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre></body></html>
